<html>
<title> - INTERNATIONAL SPACE EXPLORATION PROGRAMS</title>
<body><pre>[Senate Hearing 108-950]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-950

 
                INTERNATIONAL SPACE EXPLORATION PROGRAMS

=======================================================================

                                HEARING

                               before the

                 SUBCOMMITTEE ON SCIENCE, TECHNOLOGY, 
                               AND SPACE

                                 of the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 27, 2004

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation


                  U.S. GOVERNMENT PRINTING OFFICE
80-929                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="fb9c8b94bb988e888f939e978bd5989496d5">[email&#160;protected]</a>  



       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                     JOHN McCAIN, Arizona, Chairman
TED STEVENS, Alaska                  ERNEST F. HOLLINGS, South 
CONRAD BURNS, Montana                    Carolina, Ranking
TRENT LOTT, Mississippi              DANIEL K. INOUYE, Hawaii
KAY BAILEY HUTCHISON, Texas          JOHN D. ROCKEFELLER IV, West 
OLYMPIA J. SNOWE, Maine                  Virginia
SAM BROWNBACK, Kansas                JOHN F. KERRY, Massachusetts
GORDON H. SMITH, Oregon              JOHN B. BREAUX, Louisiana
PETER G. FITZGERALD, Illinois        BYRON L. DORGAN, North Dakota
JOHN ENSIGN, Nevada                  RON WYDEN, Oregon
GEORGE ALLEN, Virginia               BARBARA BOXER, California
JOHN E. SUNUNU, New Hampshire        BILL NELSON, Florida
                                     MARIA CANTWELL, Washington
                                     FRANK R. LAUTENBERG, New Jersey
      Jeanne Bumpus, Republican Staff Director and General Counsel
             Robert W. Chamberlin, Republican Chief Counsel
      Kevin D. Kayes, Democratic Staff Director and Chief Counsel
                Gregg Elias, Democratic General Counsel
                                 ------                                

             SUBCOMMITTEE ON SCIENCE, TECHNOLOGY, AND SPACE

                    SAM BROWNBACK, Kansas, Chairman
TED STEVENS, Alaska                  JOHN B. BREAUX, Louisiana, Ranking
CONRAD BURNS, Montana                JOHN D. ROCKEFELLER IV, West 
TRENT LOTT, Mississippi                  Virginia
KAY BAILEY HUTCHISON, Texas          JOHN F. KERRY, Massachusetts
JOHN ENSIGN, Nevada                  BYRON L. DORGAN, North Dakota
GEORGE ALLEN, Virginia               RON WYDEN, Oregon
JOHN E. SUNUNU, New Hampshire        BILL NELSON, Florida
                                     FRANK R. LAUTENBERG, New Jersey


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 27, 2004...................................     1
Statement of Senator Brownback...................................     1
Statement of Senator Nelson......................................    38

                               Witnesses

Grahn, Sven, Vice President Of Engineering, Swedish Space 
  Corporation, Solna, Sweden.....................................     2
    Prepared statement...........................................     4
Logsdon, John M., Director, Space Policy Institute, Elliott 
  School of International Affairs, The George Washington 
  University.....................................................     7
    Prepared statement...........................................     9
Oberg, James, Aerospace Operations Consultant, Soaring Hawk 
  Productions, Inc...............................................    24
    Prepared statement...........................................    28
Smith, Marcia S., Specialist in Aerospace and Telecommunications 
  Policy, Congressional Research Service.........................    12
    Prepared statement...........................................    15


                INTERNATIONAL SPACE EXPLORATION PROGRAMS

                              ----------                              


                        TUESDAY, APRIL 27, 2004

                               U.S. Senate,
    Subcommittee on Science, Technology, and Space,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 3:35 p.m. in 
room SR-253, Russell Senate Office Building, Hon. Sam 
Brownback, Chairman of the Subcommittee, presiding.

           OPENING STATEMENT OF HON. SAM BROWNBACK, 
                    U.S. SENATOR FROM KANSAS

    Senator Brownback. Thank you for joining me here today. I 
look out and we're a little thin in attendance, but as I say 
that, I think this will be one of those hearings that we'll 
look back or we'll backdrop for hearings in future years that 
will be packed with interest here in this country and around 
the world. This is where we build the foundational stock of 
information, and I'm looking forward to the input and the 
thoughts that the panel will give us today.
    One of the most significant products from our space program 
has been images of our beautiful floating in space, this view 
of spaceship Earth shows best that all mankind shares a common 
home. A closer look, though, shows a diversity of aspirations 
as significant as those we have in common. As we consider the 
President's new vision for American future in space, we must 
think about what others around the world are planning and 
doing.
    Nations and people pursue space programs for many reasons. 
In the 1960s, we had a race to the moon with the Soviet Union. 
Our space program was more about national security than space 
exploration. In the 1990s, our International Space Station 
appeared to focus on the virtues of international cooperation 
more than science. Other nations, particularly those in Europe, 
who sought space capabilities independent of the superpowers.
    We have a new American vision for space. January 14 this 
year, President Bush announced a space vision which 
dramatically refocused our space program. Our space objectives 
will now be to expand human and robotic presence in the solar 
system beginning with the moon and Mars and beyond.
    As I talk with my colleagues in Congress and at home in 
Congress, they ask why are we committing significant resources 
to space now with other pressing needs here at home. I believe 
the answer really is quite straightforward and quite important. 
America has always led on new frontiers, frontiers of science, 
frontiers of freedom and opportunity, and frontiers in space. 
Other nations are mounting impressive new ventures in space, 
some of them very low cost, but significant nonetheless. I for 
one don't think we should need to explain to our children years 
from now why others are walking on other worlds and reaping the 
benefits of space exploration when we are not.
    For this reason, I've asked experts from the United States 
and outside to tell us about other nations' space exploration 
efforts. We are in a global competition for the future. Space 
is a key element in this competition, but competition does not 
exclude cooperation. As I know well from our Nation's private 
sector that a free range of opportunities to compete and 
cooperate at individual discretion benefits all. We need this 
same spirit globally to reap the benefits of an unlimited space 
future.
    I've heard from entrepreneurs throughout America that they 
want a new approach to space. They want the U.S. Government to 
use the private sector to full advantage as we explore and 
occupy the moon and Mars and beyond. I intend to work with my 
colleagues in the Senate to ensure that that happens, and I 
want to make sure that our private sector can fully utilize the 
efforts of those outside the United States to their and our 
benefit. In other words, I'm looking for new architecture of 
how we explore space.
    Today we will hear the significant initiatives of nations 
throughout the world to expand beyond Earth orbit. Space is no 
longer the province of one or two powerful nations, but there 
is a race on for space. This is not necessarily a military 
race, but a race for the future, and the national security 
implications of space exploration are always there. Leadership 
has always been America's strong point and I believe it to be 
our destiny. I hope we will meet this challenge as we always 
have. We will lead and we will cooperate with others to 
everyone's mutual benefit.
    We have an outstanding panel of witnesses to present and 
discuss this topic about what other countries are doing in the 
space race: Mr. Sven Grahn, Vice President of Engineering and 
Corporate Communications, the Swedish Space Corporation out of 
Sweden; Dr. John Logsdon, Director of Space Policy Institute, 
Washington, D.C.; Ms. Marcy Smith, Specialist in Aerospace and 
Telecommunications Policy, Congressional Research Service; and 
Mr. James Oberg, Aerospace Operations Consultant out of Texas. 
I look forward to your testimony.
    What we will do is we'll put all of your testimonies 
completely in the record, the written testimonies. You are free 
to summarize or you can present it as well. What I like to do 
in this Committee is to have as much free and candid dialogue 
and discussion on your points of view after they're presented.
    Mr. Grahn, delighted to have you here. Welcome, and I look 
forward to your testimony.

           STATEMENT OF SVEN GRAHN, VICE PRESIDENT OF

             ENGINEERING, SWEDISH SPACE CORPORATION

    Mr. Grahn. Thank you, Senator. Yes, I'm here to talk about 
SMART-1, Europe's first moon probe. This spacecraft was 
developed on behalf of the European Space Agency by my company, 
the Swedish Space Corporation, which is a small company in a 
small country, and that's actually my message, how is that 
possible.
    The spacecraft was launched piggyback on Ariane-5 rocket in 
September last year, and it's expected to reach an orbit around 
the moon in November of this year, so it's on its way and it 
works very well. The objective of SMART-1 is to test solar 
electric propulsion for a future deep space mission. The moon 
is a convenient target for this technical test, but it's not 
the main objective. By the way, SMART means--it's not a pun--it 
means small missions for advanced research and technology. But 
investigations of the lunar surface and other objects in space 
are sort of a bonus.
    The reason why it takes 16 months to reach the moon is that 
the electric rocket motor has very low thrust. It's very 
efficient in terms of mass, but very low thrust, so it takes a 
while to spiral out to the moon and get there. That is the 
purpose of the flight to test this engine and the moon is nice 
conveniently nearby.
    SMART-1 was not developed within the skunk-works or faster 
by a cheaper paradigm, but rather used a light version of the 
traditional system's management and methodology pioneered by 
the United States in development of ICBMs in the 1950s. The 
time between our first contact with ESA and the launch was 6\1/
2\ years, which is a rather short time in the space field, and 
the design, manufacture, and test phase of the spacecraft, what 
we call the CD phase in the space world, lasted 39 months, 
which is really short for a brand new design from the bottom 
up, it was brand new. So that could be said to be part of a 
truly industrial approach to spacecraft development, how to be 
used to permit a small company that cannot reinvent everything 
to develop such a capable spacecraft in a short time, and I'd 
like to list those the main part of my testimony.
    We used commercial off-the-shelf hardware and software 
items from non-aerospace industry. These were modified by space 
use or used as is. An example is the data bussing board, which 
comes from the automotive industry. The most efficient 
commercial software development methods available were used, 
and these come from industries where the time to market for new 
products is extremely short due to cutthroat competition. I 
don't have to mention what it is, but the mobile phone 
industry, of course, where software development has to be made 
very rapidly.
    Though ESA itself provided some very good things, standard 
software building blocks for spacecraft basic functions, and 
standardized logic circuit designs for implementing 
international standards of geometry and telecom, they were 
using the spacecraft, and these have been developed under ESA's 
leadership. And that's very similar to what happened in the 
United States within national advisory committee on 
aeronautics, which developed, for example, Air Force, to use in 
the airplane industry.
    I think my last thought in terms of method is that modern 
industry has created a large group of freelance software 
engineers that are used to working in a new environment where 
the time to market and industrial working style are primary 
values, and we need to tap this talent pool. Without them, we 
couldn't have made it, and they come from the mobile phone 
industry, for example.
    All of this is nothing revolutionary, but it boils down to 
that for a small company we can't reinvent everything, so this 
off-the-shelf approach is the only way forward. And my final 
punch line is one might say that space technology needs to spin 
on terrestrial and non-aerospace technology in order to be able 
to provide more spin-off technology that is honed to perfection 
by the forbidding environment of the space mission. Thank you, 
Senator.
    [The prepared statement of Mr. Grahn follows:]

   Prepared Statement of Sven Grahn, Vice President of Engineering, 
                       Swedish Space Corporation

SMART-1, Europe's First Moon Probe
Facts about the project and how the probe was developed by a small 
        company in a small country
Distinguished members of the Subcommittee,

    It is a great honour to describe SMART-1, Europe's first space 
probe to the Moon which has been developed by the Swedish Space 
Corporation on behalf of the European Space Agency (ESA). The 
spacecraft weighed 367 kg (810 lbs) when it was launched by an Ariane-5 
rocket on 27 September 2003. It is expected to reach an orbit around 
the Moon perhaps as early as in November of this year. In my statement 
I intend to concentrate on those aspects of the project where my own 
organization has contributed. The account is made from the perspective 
of the supplier, a quite small company in a small member country of 
ESA's.
    What methods were used to permit us, a company of about 300 
employees, to develop a sophisticated lunar probe of brand-new design 
in 39 months? That is the main question that I will address.

The Mission and Its Background
    SMART-1 is the first of ESA's Small Missions for Advanced Research 
and Technology (SMART). Their purpose is to test new technologies that 
will eventually be used on bigger projects. The main mission objective 
of SMART-1 is the flight demonstration of electric propulsion for deep 
space missions.
    In early studies of SMART-1 a mission to an asteroid was 
considered. However, the piggyback launch opportunity selected put a 
strict upper limit on total mass and propellant mass. Also, a mission 
to an asteroid would require the use of busy and expensive ground 
tracking facilities because of the long distances involved. Therefore a 
flight to the Moon provided a solution to both these concerns. When the 
decision to fly to the Moon had been taken it was natural to include as 
much scientific instruments as possible. The tight mass limit provided 
an incentive for miniaturized instrument design--a bonus for later 
missions into the solar system.
    Thus the spacecraft uses a 68 mN stationary plasma thruster (PPS-
1350 developed by the French company SNECMA and provided as a Customer-
Furnished-Item by ESA) which consumes 82 kg of Xenon propellant to 
provide about 3.5 km/s of increased velocity that will bring SMART-1 
from a geostationary transfer orbit to lunar orbit. The travel time 
will be in the order of 16 months. The final lunar orbit after capture 
is intended to be polar, between 300 km and 10000 km in altitude with 
the lowest point close to the lunar south pole.
    The Lunar observation phase will last for at least six months. In 
lunar orbit, the spacecraft will be pointed with one axis at the lunar 
surface for carrying out a complete programme of scientific 
observations from lunar orbit.
    The spacecraft carries a scientific payload weighing 19 kg which 
contains miniaturized instruments such as an imager for visible light 
and near-infrared light, an infrared spectrometer, an X-ray 
spectrometer and instruments to measure the effect of the electric 
thruster on the space plasma environment. Important science objectives 
of SMART-1 are to conduct lunar crust studies in order to test the 
current theories of the formation of the Moon, and to establish whether 
the large hydrogen deposits detected near the South Lunar Pole by the 
U.S. Probes Clementine and Lunar Prospector, is indeed water. During 
the cruise phase to the Moon, experiments related to autonomous 
spacecraft navigation will be carried out using images from the star 
trackers and the miniature imager.
    ESA's official cost figure for the SMART-1 project is 100 million 
euros at 2001 economic conditions (including spacecraft, launch, 
operations and part of the payload).

The Spacecraft
    The spacecraft is designed with regard to the power needed for the 
electric propulsion, the severe radiation environment that is a 
consequence of the slow earth escape trajectory and the need for on-
board autonomy. The design life of the spacecraft is two years. The 
spacecraft looks like a one cubic meter (35 cu ft) cube equipped with 
solar panels with a 14-meter (45 ft) span.
    Power is provided by a large solar array with almost 2 kW of 
initial power using highly efficient triple-junction cells and a 220 Ah 
Li-ion battery. The spacecraft's attitude control uses reaction wheels 
and hydrazine thrusters for steering based on inputs from very compact 
star trackers and gyros. The spacecraft platform contains several new 
technology elements in addition to the electric propulsion. These 
elements are both part of the mission objectives and part of the answer 
to the question how a small company in a small country can build such a 
capable spacecraft.
    Autonomy was a major design driver for the spacecraft so that the 
long cruise to the Moon would not tie up expensive ground station time 
and operations staff. Therefore the avionics was entirely new and its 
architecture was designed so that on-board software could autonomously 
manage fault detection isolation and recovery.

The Development Task
    The project to develop the spacecraft lasted 6\1/2\ years from the 
first contact in March 1997 between ESA and the Swedish Space 
Corporation until launch. After initial assessment, feasibility and 
definition studies the development contract was signed in December 1999 
and the spacecraft was formally delivered to the customer after 39 
months. The spacecraft was stored for a few months awaiting the Ariane-
5 piggyback launch opportunity.
    The prime contractor team that managed and carried out the 
development of the spacecraft and several of its subsystems expended 
280000 working hours to complete the spacecraft. In addition the team 
procured other subsystems and equipment under fixed price contracts 
with vendors. The prime contractor staff reached a maximum size of 
about 75 persons, including on-site outside consultants for specific 
development tasks

Previous Experience of SSC as A Prime Contractor
    The Swedish Space Corporation designs, launches and operates space 
systems. We design and build small satellites, sounding rockets and 
subsystems for space vehicles. At our launch site in the far north of 
Sweden we launch sounding rockets and balloons and provide 
communications services to satellites with our extensive antenna 
facilities. The latest such support task was to NASA's Gravity Probe B 
launched last week. The company was formed in 1972, has 300 employees, 
is owned by the government, and operates as a commercial corporation.
    The Swedish Space Corporation, at the time of its selection to 
develop SMART-1, had built and launched three successful spin-
stabilized space physics satellites and was finishing the development 
of a small radio astronomy/aeronomy satellite with extremely accurate 
pointing capability (5 arc-seconds stability). This satellite, Odin, 
was launched in February 2001 and has performed brilliantly since then. 
The level of complexity of Odin is comparable to SMART-1. This made it 
possible for our company to at all contemplate taking on the 
development of SMART-1 when this task was offered to Sweden by ESA as 
part of a package for compensating our country for insufficient 
``industrial return'' on its investment in Europe's future in space.
    All our previous projects have been essentially multilateral 
projects under Swedish leadership. To develop these spacecraft SSC used 
a ``skunk-works'' approach in which a highly skilled small group of 
people is put to work with little outside daily monitoring and using 
only the documentation needed to build the product. ``Peer'' reviews of 
the technical work were used instead of formal reviews.
    Such an approach is often confused with the Faster, Better, Cheaper 
(FBC) paradigm. ``Skunk-works'' methods can be part of the FBC 
paradigm, but there is nothing in the ``skunk-works'' methodology that 
inherently assumes that higher risks will be accepted. For example; 
although we used military or commercial parts, tests and other measures 
were taken to convince us these parts would work, even if the analysis 
and test methods were unconventional. Sometimes rigorous computer 
analysis was replaced by simpler ``back-of-the envelope'' analysis, but 
extensive testing on all levels was never cut back--rather the 
opposite. The first small satellite we developed actually was tested, 
almost fully integrated, daily for almost a year.
    In these projects low cost was emphasized as the driving parameter. 
In the FBC paradigm, as I understand it, higher risk is explicitly 
accepted. This was not so in our earlier projects. Instead schedule or 
performance could be used as ''free'' parameters. For example, the 
Freja magnetospheric research satellite launched in 1992 from China had 
a very flexible requirements specification which permitted costs and 
schedule goals to be met. For Odin, the sophisticated radio telescope-
carrying satellite, schedule was not critical, but performance and cost 
was. By using a relatively small team (12 persons), the long 
development time did not cause excessive cost increases.
    Thus, our experience tends to confirm that you cannot get all the 
letters of FBC if you want to limit risk and have the assurance of low 
risk--you only get two out of the three--unless you add a new 
ingredient! The new ingredient to possibly resolve the FBC dilemma is 
smart technology and smart industrial methods. This is what we proposed 
to ESA for the SMART-1 project and which was in line with the Agency's 
ambitions for the project. Thus, when ESA presented the spacecraft to 
the press in April 2003, Dr David Southwood, ESA's director of science 
described the development paradigm for SMART-1 as ``faster, better, 
smarter''.

The Outline of A Truly Industrial Approach to Spacecraft Development
    Thus, SMART-1 was not developed within the ``skunk works'' paradigm 
but rather a ``light'' version of traditional system management 
methodology pioneered in the development of ICBM's in the United 
States. Tight customer oversight of the supplier was used to provide a 
measure of assurance of low risk. However, ESA kept a comparatively (to 
other space science projects within ESA) lean staff of approximately 8 
persons for day-to-day monitoring of us as the supplier. The monitoring 
staff consisted mainly of highly skilled technical specialists but also 
experts on management, project control and contractual aspects. For 
major project reviews the Customer used its normal level of resources 
with about 40 specialists spending 4-6 weeks examining every technical 
aspect of the project.
    The contract type, cost-plus-incentive-fee (even with a negative 
fee!), was a way of keeping cost low (the risk to the supplier of 
developing a brand-new spacecraft with much new technology was not 
slapped on the price), but it also required much more detailed 
reporting of man-hours and other expenditures than for a fixed price 
contract.
    The organization within the Swedish Space Corporation that 
developed SMART-1 was the Space Systems Division based at the company's 
engineering center in Solna, a suburb of the capitol Stockholm. This 
division has a total staff of 75 persons so the development of SMART-1 
was a major task and indeed a difficult one especially in the early 
parts of the project when our previous working style had to be changed.
    However, some choices of technology and methods were worked out 
with the Customer early in the project that helped considerably in 
meeting the schedule without losing the assurance of limited risk.

  1.  Without trying to flatter ESA, a superbly competent customer 
        helps any supplier, and it certainly helped a small company 
        like the Swedish Space Corporation.

  2.  Commercial-off-the-shelf items from non-aerospace industry were 
        modified for space use or used as-is, i.e., the CAN data bus 
        developed in the automotive industry and a commercial real-time 
        operating system. These items have been developed for 
        commercial use by injecting massive amounts of human resources 
        that is hard to match in the space industry.

  3.  Since a very large fraction of the spacecraft cost, perhaps 25 
        percent, can be related to software development, the most 
        efficient developments methods available had to be used. These 
        can be found in such fields as the mobile telecom industry 
        where the requirements for short ``time-to-market'' for new 
        products are extreme due to the cut-throat competition. 
        Although so-called automatic code generation is not entirely 
        new to the space business, it had not been used systematically 
        in ESA programs. In SMART-1 we used this in the development of 
        the attitude control software, the fault detection isolation 
        and recovery software, and high-fidelity simulators of the 
        spacecraft.

  4.  Standard software building blocks for spacecraft basic functions 
        that were developed previously under ESA leadership were used 
        and removed the need not re-invent them. In this way and by 
        using commercial software building blocks (such as operating 
        system) software development could be concentrated on the tasks 
        specific to the SMART-1 mission.

  5.  Standardized logic circuit designs for implementing the 
        international telemetry and telecommand standard is available 
        through the efforts of ESA, both as ready-made circuits and as 
        code for programming so-called gate arrays--chips that can be 
        programmed to a certain task, for example to be a 
        microprocessor.

  6.  The modern IT and telecom industry has created an extremely 
        competent cadre of free-lance software engineers used to 
        working in an environment where ``time-to-market'' and an 
        industrial working style are primary values. This talent pool 
        was tapped for SMART-1.

    In five of the examples above one can see the outline of a truly 
industrial approach to spacecraft development, i.e., the widespread use 
of standard, well-tested building blocks permitting the developer to 
concentrate on product-specific work. ESA's role in providing standard 
building blocks is reminiscent of the role of NACA in early U.S. 
aeronautics when this organization provided basic design standards such 
as airfoil profiles to the budding aeronautical industry.
    This is no revolutionary thought, but it needs to be applied 
systematically. In SMART-1 we tried to do this and we intend to 
continue along this approach. For a small company that cannot re-invent 
everything, this is the only way forward.
    One might say that space technology needs to ``spin on'' 
terrestrial and non-aerospace technology in order to be able to provide 
more ``spin off'', i.e., technology that is spurred to perfection by 
the forbidding design environment that a space mission provides.
Concluding Remarks
    We are indeed proud of our product, excited about working with ESA 
in advancing the state-of-the-art of astronautics and very flattered by 
the opportunity to share our experience with this distinguished 
deliberating body.

    Senator Brownback. Thank you. I look forward to talking 
with you more, because what you are describing is something 
that a number of you have talked about of a different 
architecture for our space program and I want to pursue that 
with you.
    Dr. Logsdon, thank you very much for joining us today. I 
want to advise you too, we've got a vote that was just recently 
called, and in a little under 5 minutes, I will put the 
Committee in recess and so the next two, I'll come back as 
quick as I can and we'll continue with the testimony at that 
time, but I think we can get your testimony in.

STATEMENT OF JOHN M. LOGSDON, DIRECTOR, SPACE POLICY INSTITUTE, 
ELLIOTT SCHOOL OF INTERNATIONAL AFFAIRS, THE GEORGE WASHINGTON 
                           UNIVERSITY

    Dr. Logsdon. Thank you, Mr. Chairman, for providing the 
opportunity to reflect on the character of space exploration 
programs around the world. I will focus in my testimony on the 
explorations plans of Japan and India. However, I was in Europe 
less than 2 weeks ago, and if time permits, I have some remarks 
to make about what I found in talking to space leaders there.
    As you said in your opening statement, our initial forays 
in human exploration beyond Earth orbit were a product of the 
cold war. Forty years later, the Cold War is thankfully behind 
us. We have no need as a nation to demonstrate our 
technological and organizational might through dramatic space 
achievements carried out unilaterally. In the three decades 
since Apollo, the solar system has become open for exploration 
to other countries around the world. Among these countries are 
Japan and India.
    Almost a decade ago, Japan set out a long range vision for 
space development. That vision anticipated that some time after 
2010 there would be an international lunar base with Japan as a 
key participant. In pursuit of this vision, Japan has launched 
several exploratory spacecraft to Mars and to a comet, and is 
preparing several more for launch. Awaiting launch is a Lunar-A 
mission, which will send two small penetrators into the lunar 
surface for seismological research, and SELENE, which will be 
the heaviest spacecraft to orbit the moon since the days of 
Apollo. The SELENE mission will focus on the origins and 
evolution of the Earth's nearest neighbor. Projected launch 
date for Lunar A is later this year or early in 2005, SELENE, 
the following 12 months. But in reality, both missions have 
been delayed several times in the past and additional delays 
are probable.
    Japan has on the planning boards a mission to Venus and is 
a major partner with the European Space Agency in a mission to 
Mercury called Beppi-Colombo. So indeed, Japan has ambitious 
plans for solar system exploration. But the reality is that 
Japan's space program right now is pretty much on hold 
following several major spacecraft failures and then a major 
launch failure last November. This came just as Japan was 
reorganizing its space efforts into a new Japanese aerospace 
exploration agency called JAXA.
    Until the short-term problems of assuring mission success 
are addressed and again the confidence of the Japanese 
Government, I think Japan will not be able to move forward with 
its exploration plans.
    Last year on Indian independence day, which is August 15, 
Indian Prime Minister Vajpayeeon announced that India in 2007 
would send its first mission to the moon, to be named 
Chandrayaan-1. This spacecraft is going to spend 2 years 
orbiting the moon 60 miles above its surface. India has had an 
active space program for over 30 years, developed its own 
launch vehicles to access both low-Earth orbit and 
geosynchronous orbit. Its space program to date has been 
focused on contributions to Indian development and economic 
growth.
    But now India appears poised to go beyond an Earth-oriented 
space program to join other nations in exploring the solar 
system. Visiting the Indian launch site last October, Indian 
President Abdul Kalam, himself a former space engineer, told 
the assembled workers, ``the exploration of the moon through 
Chandrayaan will electrify the whole country, particularly 
young scientists and children. I am sure the moon mission is 
just a start toward further planetary explorations.''
    It's worth noting that India has invited the international 
scientific community to participate in the mission. India has 
received some 25 proposals from such participation from 
scientists in the United States, Canada, Israel, and Europe. 
Clearly investigators from other countries want to ride aboard 
India's first exploration mission.
    With your permission, I will take a couple of minutes to 
talk about Europe. Europe, first of all, is a very active 
player already in solar system explorations. SMART-1 is just 
one of several European missions going to the planets and a 
very ambitious mission called Rosetta is going on a 10-year 
journey to a comet. Europe for the past couple of years has 
been studying through a program called Aurora a human mission 
to Mars in the 2030 timeframe; this however is only a study 
program. The plan was to begin to prepare in 2005 and make 
major investments after 2010.
    These exploratory missions have been taking second priority 
within Europe and within the European Space Agency to an 
emerging focus on how space capabilities can contribute to the 
development of Europe as an economic, political, and cultural 
entity with a focus on Earth-oriented space missions like Earth 
observation, and navigation and timing.
    President Bush's proposed U.S. Vision for Space Exploration 
poses a Direct Challenge to stated European space ambitions. 
Europe is going to be faced with a choice with limited 
resources of whether to proceed on its current path or become a 
major partner in U.S.-led exploration of the moon. The director 
general of ESA was quoted after President Bush's speech as 
saying, I dreamed of the day when the President of Europe would 
come to ESA headquarters and make a similar policy declaration. 
In response, a new team at ESA is developing over the coming 
months, a new approach to space exploration, so there is an 
action/reaction phenomenon here.
    Space exploration is no longer an arena for unilateral 
display of national power. Exploring the solar system has 
really become a truly global enterprise. I hope today's 
testimony has underlined the reality that if the United States 
public through its elected representatives chooses not to 
accept some version of the President's vision and make it a 
national vision for space exploration--which I believe would be 
a poor choice, by the way--other countries in coming decades 
will assume exploratory leadership. Writing to the White House 
in late 1971 to make the case that the U.S. then should not 
choose to end its program of human space flight, NASA 
Administrator James Fletcher argued, ``man has learned to fly 
in space and man will continue to fly in space. The United 
States cannot forego its responsibility to have a part in 
manned space flight. For the United States not to be in space 
while others do have men in space is unthinkable and a position 
which America cannot accept.''
    I would change one word in Dr. Fletcher's argument. Rather 
than ``cannot,'' I would say, ``should not.'' We can indeed 
make as a society the decision that the benefits of human space 
flight are outweighed by its costs and risks and choose not to 
explore. To me, that would be a sad choice. Thank you.
    [The prepared statement of Dr. Logsdon follows:]

     Prepared Statement of John M. Logsdon, Director, Space Policy 
    Institute, Elliott School of International Affairs, The George 
                              Washington 
                               University

    Thank you, Mr. Chairman, for providing an opportunity to reflect on 
the character of space exploration programs around the world. I will 
focus in my testimony on the exploration plans of Japan and India. 
However, less than two weeks ago I was in Europe discussing European 
exploration plans with space leaders there, and so I will also add a 
few words on my perceptions of what I heard there.
    Between July 1969 and December 1972, twelve American astronauts 
walked on the surface of the moon. The Apollo program will in 
historical terms be remembered as the beginning of human exploration of 
the solar system, and the plaque attached to the Apollo 11 lunar module 
Eagle says ``we came in peace for all mankind.'' The reality was rather 
different, as you well know. Sending Americans to the moon was ``part 
of the battle along the fluid front of the Cold War,'' to quote the 
recommendation that President John F. Kennedy approved in May 1961 to 
initiate the lunar landing program.
    More than forty years later, the Cold War is thankfully well behind 
us. We have no need as a nation to demonstrate our technological and 
organizational might through dramatic space achievements carried out 
unilaterally. In the three decades since Apollo, the solar system has 
become open for exploration not only to the United States and its 
superpower rival the Soviet Union, but to other countries around the 
globe. Either in cooperation with one of those space superpowers or on 
missions of their own, many countries around the world have made 
robotic exploration of the solar system a high priority in their space 
efforts.
    Among those nations are Japan and India. Almost a decade ago, in 
its ``Long Term Vision for Space Development,'' the Japanese government 
set out as a basic goal a philosophy that might well be adopted by all 
space faring countries: to ``enable access to the vastness of space and 
use the infinite potential of space as the common property of mankind, 
thereby making a full and effective contribution to the enduring 
prosperity of all inhabitants on earth.'' That Vision anticipated 
sometime after 2010 there would be an international lunar base, with 
Japan as a key participant.
    In pursuit of its Vision, Japan has launched several exploratory 
spacecraft and is preparing several more for launch to the moon. 
Japan's Nozomi spacecraft was launched toward Mars in July 1998, and 
arrived there at the end of 2003, after a journey fraught with 
technical difficulties. A final spacecraft malfunction kept Nozomi from 
entering Mars orbit. In May of last year Japan launched the Hayabusha 
(MUSES-C) mission, which will rendezvous with an earth-crossing 
asteroid in 2005 and return a sample of that body to Earth in 2007.
    Awaiting launch are the Lunar-A mission, which will send two small 
penetrators into the lunar surface for seismological research, and 
SELENE, which will be the heaviest spacecraft to orbit the moon since 
the days of Apollo. The SELENE mission will focus on the origins and 
evolution of the Earth's nearest neighbor. Projected launch date for 
Lunar A is this year or early in 2005; SELENE, the following twelve 
months. Both missions have been delayed several times in the past, and 
additional delays are probable.
    In addition, Japan is planning for a mission to Venus in the future 
and is a major partner in the European Space Agency Beppi-Colombo 
mission to Mercury.
    So Japan indeed has ambitious plans for solar system exploration. 
But this discussion would not be complete without noting that Japan's 
space program is currently pretty much on hold, following several major 
spacecraft failures in 2002 and 2003 and then the launch failure of the 
sixth mission of Japan's H-IIA rocket in November 2003. These failures 
came at the time that Japan was reorganizing its space efforts into the 
new Japanese Aerospace Exploration Agency (JAXA). The combination of 
investigating the causes of these recent failures and putting into 
place measures to assure future mission success, together with the 
bureaucratic and cultural challenges of merging various previously 
separate Japanese space agencies into an integrated structure, are 
consuming the energies of Japanese space leaders. It is no exaggeration 
to say that Japan is undergoing a crisis of confidence in its space 
efforts. Until short-term problems are addressed, Japan will not be 
able to move forward with its exploration plans.
    However, even given this rather gloomy situation, a standing-room 
only crowd attended a January 23 symposium on lunar exploration. And, 
as one of the leaders of Japanese space exploration, Yasunori Matogawa, 
recently wrote: ``I feel my mind is getting stronger and stronger day 
by day that what could finally relieve ourselves would not come from 
anywhere but from our own vigorous willpower to carry on `Exploration.' 
Its keyword is moon. I cannot help but believe these days that moon is 
the best-chosen target containing every possibility as to science, 
global ecology, resources development, safety and security.'' \1\
---------------------------------------------------------------------------
    \1\ The Planetary Society of Japan, April 14, 2004.
---------------------------------------------------------------------------
    Last year, on Indian Independence Day, August 15, Indian Prime 
Minister Atal Bihari Vajpayeeon announced that India in 2007 would send 
its first mission to the moon, to be named Chandrayaan-1. The 
spacecraft will spend two years in orbit 60 miles above the lunar 
surface. India has had an active space program for over thirty years, 
and has developed its own launch vehicles to access both low Earth 
orbit and geosynchronous orbit. Its space program to date has been 
focused on contributions to Indian development and economic growth. For 
example, India operates a multi-satellite constellation of remote 
sensing satellites that provide world-class imagery of the 
subcontinent.
    Now India appears poised to go beyond an Earth-oriented space 
program to join other nations in exploring the solar system. Visiting 
the Indian SHAR launch site on the eastern coast of the country last 
October, Indian President Dr. A. P. J. Abdul Kalam, himself a former 
space engineer, told the assembled workers that ``The exploration of 
the moon through Chandrayaan will electrify the entire country, 
particularly young scientists and children. I am sure the moon mission 
is just a start towards further planetary explorations.'' He added that 
he could ``visualise a scene, in the year 2021, when I will be 90 years 
old and visiting SHAR Space Port for boarding the space plane, so that 
I can reach another planet and return safely as one of the passengers. 
I foresee the Satish Dhawan Space Centre, SHAR, to grow into an 
international spaceport with a capability of enabling launches and 
landings of the reusable launch vehicles.''
    India has invited international scientific participation in the 
Chandrayaan-1 mission. It has received some twenty-five proposals for 
such participation from scientists in the United States, Canada, 
Israel, and Europe. Clearly, investigators from many other countries 
want a ride aboard India's first exploration mission.
    Let me add a few works on my views on Europe's plans for solar 
system exploration, based on conversations during a recent trip to 
Paris. First of all, Europe is already an active player in robotic 
exploration in the solar system, with its Mars Express mission in orbit 
around Mars, the Huygens spacecraft carried to Saturn along with the 
U.S. Cassini craft scheduled to land on Saturn's moon Titan early next 
year, Smart-1 on the way to the moon, and the Rosetta spacecraft 
started on its ten-year journey to rendezvous with a comet. More 
robotic missions are planned.
    For the past several year, the European Space Agency (ESA) has been 
studying, through a program called Aurora, a human mission to Mars in 
the 2030 time frame. This was only a study program; the plan was to 
begin a preparatory phase only in 2005, with any major investments in 
human exploration well after 2010. Within ESA, a second study group 
last year proposed setting as a European goal establishing a base on 
the moon. That was a slightly faster paced program, with a goal of a 
permanent European presence on the moon by 2025. This second plan did 
not receive the support of the ESA leadership.
    However, these exploratory missions and studies in recent years 
have been taking second priority to an emerging focus on how space 
capabilities can contribute to the development of Europe as an 
economic, political, and cultural entity, with a focus on Earth-
oriented space missions in Earth observation, navigation and timing, 
and perhaps broadband communications and military uses.
    President Bush's proposed U.S. Vision for Space Exploration, with 
its stated intention of inviting other countries to join ``a journey, 
not a race,'' poses a direct challenge to stated European space 
ambitions. If the Congress gives the go ahead to the initial steps in 
achieving this vision--and I believe that it should--Europe will be 
faced with the choice, with limited resources available for space 
programs, of whether to proceed on its current path or become a major 
partner in U.S.-led exploration of the solar system. I understand that 
the Director General of ESA, Jean-Jacques Dordain, was invited to be 
here today but rather is in Russia awaiting the return of ESA astronaut 
Andre Kuipers from his brief stay on the International Space Station. 
Referring to President Bush's January 14 speech on space exploration, 
Dr. Dordain has been quoted recently as saying that ``dreamed of the 
day when the President of Europe would come to ESA headquarters and 
make a similar policy declaration.'' A new ESA team is just beginning 
to plan how best to respond to the anticipated NASA invitation to 
participate.
    Space exploration is no longer--indeed has not been for more than 
thirty years--an arena for unilateral display of national power. As my 
testimony and that of the others appearing before you today has shown, 
exploring the solar system has become a truly global enterprise.
    Last year I had the privilege of serving as a member of the 
Columbia Accident Investigation Board. The Board's August 2003 report 
was explicit in laying out the negative consequences of the lack of a 
compelling vision for human spaceflight, and characterized that lack as 
``a failure of national leadership.'' To its credit, the Bush 
administration has responded to that criticism with what must be 
characterized in its essence as a ``compelling vision'' of a human-
robotic partnership for the exploration of our solar system. There is 
an understandable focus in the Congress on the short-term implications 
of the proposed vision. I hope that the basic principle put forth by 
the President--that it is in the Nation's interest, now and for future 
generations, to take the leading role in extending human activity and 
presence into the solar system, is not lost in this shorter term focus.
    I also hope that today's testimony has helped underline the reality 
that if the United States public through its elected representatives 
chooses not to accept the President's vision and make it a ``National 
Vision for Space Exploration,'' other countries in coming decades will 
assume that exploratory leadership. Writing to the White House in late 
1971 to make the case that the United States should not choose to end 
its program of human space flight, NASA Administrator James Fletcher 
argued ``Man has learned to fly in space, and man will continue to fly 
in space. . . . The United States cannot forgo its responsibility--to 
itself and to the free world--to have a part in manned space flight. . 
.. For the U.S. not to be in space, while others do have men in space, 
is unthinkable, and a position which America cannot accept.''
    I would change one word in Dr. Fletcher's argument. Rather than 
``cannot'' I would say ``should not.'' We can indeed make as a society 
the decision that the benefits of human spaceflight are outweighed by 
its costs and risks. To me, that would be a sad choice.
    John M. Logsdon is Director of the Space Policy Institute at George 
Washington University's Elliott School of International Affairs, where 
he is also Professor of Political Science and International Affairs. He 
holds a B.S. in Physics from Xavier University (1960) and a Ph.D. in 
Political Science from New York University (1970). Dr. Logsdon's 
research interests focus on the policy and historical aspects of U.S. 
and international space activities.
    Dr. Logsdon is the author of The Decision to Go to the Moon: 
Project Apollo and the National Interest and is general editor of the 
eight-volume series Exploring the Unknown: Selected Documents in the 
History of the U.S. Civil Space Program. He has written numerous 
articles and reports on space policy and history. He is frequently 
consulted by the electronic and print media for his views on space 
issues.
    Dr. Logsdon recently served as a member of the Columbia Accident 
Investigation Board. He is a former member of the NASA Advisory Council 
and a current member of the Commercial Space Transportation Advisory 
Committee of the Department of Transportation. He is a recipient of the 
NASA Distinguished Public Service and Public Service Medals and a 
Fellow of the American Institute of Aeronautics and Astronautics and of 
the American Association for the Advancement of Science.

    Senator Brownback. I'm going to put us in recess. It's 
probably going to be about 10-15 minutes and I'll be right back 
and we'll finish the panel. Thank you.
    [Recess.]
    Senator Brownback. We're going to be reconvened. Thank you 
very much for getting back together and staying here with us.
    Ms. Smith is a resident scholar, historian on space 
programs. It's always good to see you here in front of the 
Committee.
    Ms. Smith. Thank you very much, Senator.
    Senator Brownback. We look forward to your presentation.

   STATEMENT OF MARCIA S. SMITH, SPECIALIST IN AEROSPACE AND 
           TELECOMMUNICATIONS POLICY, CONGRESSIONAL 
                        RESEARCH SERVICE

    Ms. Smith. Thank you very much for inviting me to be here 
today. You asked that I set the broad international stage to 
talk about who is working in space these days, to talk about 
Europe, Russia, and India and how they could participate in the 
exploration initiative, and to identify issues in which the 
Committee might be interested.
    The new initiative involves both human and robotic space 
flights to the moon, Mars, and other solar system destinations, 
as well as space-based observatories and other spacecraft to 
answer the question of whether there is life elsewhere in the 
universe. This broadly scoped program opens a wide range of 
opportunities for international participation. The number of 
countries involved in space is probably larger than most people 
realize. The list of launching countries includes the United 
States, Russia, Europe, China, Japan, India, and Israel. Like 
the United States, Russia, Europe, and Japan have sent 
spacecraft to the moon and beyond. Although the United States, 
Russia, and China are the only countries capable of launching 
people into space, astronauts and cosmonauts from 29 other 
countries have journeyed into space on American or Russian 
spacecraft. Many countries have their own communications or 
remote-sensing satellites, and virtually every country in the 
world uses satellites.
    Dr. Logsdon has already discussed India and Europe, so I 
would like to take my time to talk about the Russian space 
program and then to talk about some of the issues that I've 
identified in my written statement. The Soviet Union, of 
course, has a very long and well-established space program 
dating back to the very earliest days. The Soviet Union 
accomplished many space firsts, including launching the first 
satellite, Sputnik, in 1957, launching the first man into 
space, Yuri Gagarin, in 1961, launching the world's first space 
station, Salyut 1 in 1971, and many other space firsts.
    But during the 1960s, the era of the moon race, they were 
not about to develop a Saturn V-class launch vehicle and were 
not able to send cosmonauts to the moon. Instead, they focused 
their attention on Earth orbit, and over the next several 
decades, launched seven successful space stations, the best 
known of which is Mir. Mir has now been deorbited, but it did 
host cosmonaut crews for many years, including 10 years in 
which the Space Station was permanently occupied.
    In the 1980s, the Soviets finally did build that Saturn V-
class launch vehicle that they had wanted, and it's called 
Energia, and they also developed their own version of a 
reusable space shuttle, which they called Buran. However, after 
the collapse of the Soviet Union, the Russian Government 
decided to discontinue both of those programs and the budget 
for space activities was sharply curtailed. Yuri Koptev, who 
headed the Russian Space Agency from 1992 when it was created 
until last month, often said that the Russian space budget was 
about one-tenth of what it had been under the Soviet 
Government.
    The Russian space program today is sharply constrained by 
its funding, but it is still very interested in the types of 
objectives laid out in President Bush's exploration initiative. 
They often speak about their own plans to send people to the 
moon.
    In terms of their potential participation in a U.S.-led 
exploration initiative, they have much to offer. They have 
extensive experience in human space flight. They had one 
cosmonaut who stayed in space continuously for 14\1/2\ months. 
They have extensive launch vehicle capabilities. They are the 
only country that has operated nuclear reactors in space. The 
United States has launched only one nuclear reactor in 1965, it 
was a test reactor, but the Soviets used them in a program 
called Radar Ocean Reconnaissance Satellites.
    They do have operational experience, both the pros and the 
cons. They ended up discontinuing that program because of three 
instances in which radioactive material either returned to 
Earth or almost returned to Earth. They also launched a series 
of biosatellite missions called Bion, in which NASA might be 
interested, although NASA's participation in Bion missions was 
controversial after one of the monkey subjects on the flight 
died after a post-flight examination.
    But Russia is, of course, a very strong partner with the 
United States today and the International Space Station 
program, and I'll be talking about that a little bit later 
during the issues, but they clearly have a very mature space 
program, and except for their funding constraints, could play a 
very prominent role in such an exploration initiative.
    The exploration initiative is still in its earliest 
definition stages and is likely to take decades to complete. It 
is difficult to predict at this early stage what issues will 
arise as it is carried out. Three broad issues, however, may be 
of interest to the Committee at this early date. What countries 
do we want to include and will they want to join? Where to draw 
the line between cooperation and dependence? And whether it is 
timely to review relevant U.N. space treaties and principles.
    Several factors weigh in decisions about whom to invite to 
join international projects. These will include not only who 
can offer needed capabilities and funding, but political 
relationships. In a program such as this likely to span several 
decades, the latter can be particularly complicated. One 
question that many people are asking is whether China should be 
invited, and I know that Mr. Oberg is going to speak about that 
in a moment. This Committee may wish to consider the advantages 
and disadvantages of having China as a partner or as a 
competitor.
    Many factors will also play in who will accept the 
invitation. For all of the successes of U.S.-led international 
space cooperation over the past 46 years, there have been 
strains as well. In any international space endeavor, 
compromises and adjustments must be made. The United States has 
demonstrated flexibility when partners have not been able to 
fulfill their promises and others have had to adjust to changes 
in U.S. plans.
    The International Space Station is a prime example of both. 
Only our partners themselves can say whether they view ISS as a 
positive or a negative experience, but it necessarily will 
factor into their judgments about the current offer.
    Another factor is what role they would play in setting the 
goals and objectives of the exploration initiative. So far, the 
message is that they are being invited only to help, quote, 
achieve this set of American U.S. objectives, unquote, as NASA 
Administrator O'Keefe has said. Whether they will want to 
participate under that condition or choose other international 
arrangements instead is not clear. With a wider variety of 
international cooperative opportunities available today, 
potential partners might want a stronger voice in deciding what 
is to be done and how to have a shared vision, not just a U.S. 
vision.
    A second issue is the extent to which U.S. space activities 
are becoming dependent on other countries, notably Russia. 
Historically, NASA established cooperative programs in a manner 
such that other countries were not in the critical path, that 
is, the program could be accomplished even if the foreign 
partner did not fulfill its obligations.
    The new plan laid out by the President and NASA takes the 
opposite approach, intentionally deciding to make U.S. human 
access to space dependent on Russia during a 4-year period 
between the anticipated retirement of the Shuttle in 2010 and 
the availability of the crew exploration vehicle in 2014.
    There is a difference between the emergency situation 
today, where Russia is providing access to the Space Station 
because of the Columbia tragedy, and an intentional decision to 
suspend NASA's ability to launch astronauts into space with the 
hope that the political relationship with Russia remains stable 
and an agreement can be negotiated to enable U.S. astronauts to 
continue working aboard ISS.
    In this sense, the President's decision could be 
interpreted as forgoing assured human access to space. To the 
extent that decision could create a condition where U.S. 
astronauts might not be able to work aboard ISS, Congress may 
choose to explore its implications.
    Finally, the United States is a party to four U.N. treaties 
that regulate space activities. It is not a party to a fifth, 
the Moon Agreement, which focuses on exploitation of the moon. 
Issues raised by these treaties may become more prominent as 
prospects for activities such as mining on the moon come closer 
to reality. A review of the space treaties and associated U.N. 
principles that could affect the exploration initiative may be 
in order.
    The exploration initiative offers the United States an 
opportunity to affirm its historical and fostering 
international cooperation in space. The key will be whether we 
can adapt to the changed landscape of cooperative possibilities 
and continue to lead the world in the peaceful exploration of 
space.
    Thank you, and I'd be happy to answer any questions.
    [The prepared statement of Ms. Smith follows:]

  Prepared Statement of Marcia S. Smith, Specialist in Aerospace and 
       Telecommunications Policy, Congressional Research Service

``Potential International Cooperation in NASA's New Exploration 
        Initiative''
    Mr. Chairman, members of the Committee, thank you for inviting me 
here today to testify about potential international cooperation in 
President Bush's exploration initiative. You asked that I provide an 
overview of the international space setting, to provide information 
about the roles that Europe, Russia, and India might play, and to raise 
related issues that might be of interest to the Committee.

The New Exploration Initiative
    On January 14, 2004, President George W. Bush made a major space 
policy address in which he directed NASA to focus its activities on 
returning humans to the Moon by 2020 and someday sending them to Mars 
and ``worlds beyond.'' The President invited other countries to 
participate, saying--

        We'll invite other nations to share the challenges and 
        opportunities of this new era of discovery. The vision I 
        outline here is a journey, not a race. And I call on other 
        nations to join us on this journey, in the spirit of 
        cooperation and friendship.

The International Space Setting
    The President's exploration initiative involves both human and 
robotic space flights to the Moon, Mars, and ``worlds beyond,'' as well 
as space-based observatories and other spacecraft to answer the 
question of whether there is life elsewhere in the universe. This 
broadly scoped exploration program opens a wide range of opportunities 
for international participation.
    The number of countries involved in space activities is probably 
larger than most people realize. The list of ``launching countries''--
those that have their own launch vehicles and launch sites--includes 
the United States, Russia, Europe, China, Japan, India, and Israel. 
Like the United States, Russia, Europe, and Japan have sent spacecraft 
to the Moon and beyond (see Appendix 1).
    Although the United States, Russia, and China are the only 
countries capable of launching people into space, astronauts and 
cosmonauts from 29 other countries have journeyed into space on 
American or Russian spacecraft.\1\ Many countries have their own 
communications or remote sensing satellites.\2\ Virtually every country 
in the world uses satellites, primarily for communications, weather, 
navigation, and remote sensing.
---------------------------------------------------------------------------
    \1\ Afghanistan, Austria, Belgium, Bulgaria, Canada, Cuba, 
Czechoslovakia, France, Germany, Hungary, India, Israel, Italy, Japan, 
Kazakhstan, Mexico, Mongolia, the Netherlands, Poland, Romania, Saudi 
Arabia, Slovakia, South Africa, Spain, Switzerland, Syria, Ukraine, 
United Kingdom, and Vietnam.
    \2\ A comprehensive list is outside the scope of this testimony, 
but, in addition to the launching countries, includes Algeria, 
Argentina, Australia, Brazil, Canada, Egypt, Indonesia, Nigeria, 
Malaysia, Morocco, Pakistan, Philippines, Saudi Arabia, South Africa, 
South Korea, Taiwan, Turkey, and the United Arab Emirates.
---------------------------------------------------------------------------
    NASA's authority to conduct international space activities is 
codified in Section 205 of the 1958 National Aeronautics and Space Act, 
which created NASA. Since that time, the agency has engaged in 
thousands of cooperative arrangements ranging from the exchange of 
data, to training scientists how to interpret remote sensing imagery, 
to foreign experiments on U.S. satellites and U.S. experiments on 
foreign satellites, to joint development of spacecraft, to construction 
of the International Space Station (ISS). Cooperation has been 
undertaken not only with U.S. allies, but with our rivals as well. Even 
at the height of U.S.-Soviet space competition in the early days of the 
Space Age, the two countries also worked together--at the United 
Nations through the Committee on Peaceful Uses of Outer Space, and 
through bilateral cooperative agreements as early as 1962.
    While the number of potential partners for the new exploration 
initiative is large, it is likely that attention will focus first on 
countries with whom the United States has traditionally cooperated in 
large space endeavors such as ISS (which involves Canada, Europe, 
Russia, and Japan), and those with the ability to launch spacecraft. 
You asked that I focus my remarks on the potential roles that Europe, 
Russia, and India could play.

Europe
    Brief Overview. European countries conduct space activities in a 
number of ways. Some countries, such as France, Germany, and Italy have 
substantial national space programs, and may invite international 
cooperation in those activities on a bi-or multi-lateral basis. Other 
European space activities are conducted under the aegis of the European 
Space Agency (ESA). ESA currently has 15 members: Austria, Belgium, 
Denmark, Finland, France, Germany, Ireland, Italy, the Netherlands, 
Norway, Portugal, Spain, Sweden, Switzerland, and the United Kingdom. 
Some of ESA's programs are mandatory (all members must contribute to 
them) and others are optional (countries can choose whether or not to 
participate). Europe's participation in the ISS program is primarily 
through ESA, where it is an optional program. Eleven ESA members 
participate.\3\ (The United States and Italy also have a separate 
bilateral agreement covering certain hardware provided by Italy.) ESA 
and the European Union (EU) \4\ are working closely together today, and 
in January 2004, the European Parliament adopted a ``Resolution on the 
Action Plan for Implementing the European Space Policy.'' ESA and the 
EU are jointly sponsoring the development of the Galileo navigation 
satellite system, and are encouraging other countries to join them in 
that program.
---------------------------------------------------------------------------
    \3\ Belgium, Denmark, France, Germany, Italy, the Netherlands, 
Norway, Spain, Sweden, Switzerland and the United Kingdom are 
signatories to the ISS Intergovernmental Agreement. The United Kingdom 
does not provide funding for the ISS program, however, so in some case 
the number of participants is cited as 10.
    \4\ The EU members are Austria, Belgium, Denmark, Finland, France, 
Germany, Greece, Ireland, Italy, Luxembourg, the Netherlands, Portugal, 
Spain, Sweden, and the United Kingdom. Ten more countries will join the 
EU in May 2004: Cyprus, Czech Republic, Estonia, Hungary, Latvia, 
Lithuania, Malta, Poland, Slovakia, and Slovenia. Additional countries 
have applications pending.
---------------------------------------------------------------------------
    ESA developed the Ariane launch vehicle; its first launch was in 
1979. Ariane launches are conducted by the French company, Arianespace, 
from Kourou, French Guiana, on the northern coast of South America. ESA 
also is developing a smaller launch vehicle, Vega, and has a 
cooperative agreement with Russia to launch Russia's Soyuz launch 
vehicle from Kourou. Arianespace is often cited as being the dominant 
provider of commercial space launch services in the world, but the 
downturn in the commercial space market has affected Arianespace along 
with other commercial launch services companies. Consequently, ESA 
adopted a European Guaranteed Access to Space (EGAS) program that will 
provide 960 million euros to Arianespace through 2009.
    Astronauts from several European countries have flown into space as 
representatives of ESA or their own countries on Russian or American 
spacecraft. In the late 1980s, ESA announced a plan to develop its own 
human space flight vehicle, Hermes, but the program was terminated 
because of cost considerations.
    ESA and individual European countries have built and launched a 
large number of spacecraft including space-based observatories and 
other scientific satellites (including some to destinations beyond the 
Moon, see Appendix 1), as well as satellites for communications, 
weather, and remote sensing. They are primarily for civilian purposes, 
but some of the non-ESA satellites are military.
    ESA's 2003 budget was 2.7 billion euros ($3.1 billion using today's 
exchange rate).
    Current Interest in Space Exploration. ESA initiated the Aurora 
program in 2001 to formulate and implement ``a European long-term plan 
for the robotic and human exploration of solar system bodies holding 
promise for traces of life.'' \5\ The Aurora program envisions an 
international human mission to Mars by 2025. ESA's Mars Express 
spacecraft is now in orbit around Mars, and SMART-1 is currently en 
route to the Moon.
---------------------------------------------------------------------------
    \5\ See ESA's Aurora website: www.esa.int/SPECIALS/Aurora/
ESA9LZPV16D_0.html.
---------------------------------------------------------------------------
    The European reaction to President Bush's speech was generally 
supportive, though cautionary about obtaining the required resources to 
conduct such a program. In a joint ESA-EU statement, ESA's Director 
General, Jean-Jacques Dordain, stated that ``The important point in 
looking at the American vision is that space is an international field. 
A coherent European Space Policy does not make any sense if not 
grounded in the larger global context.'' He added that ``Unlike in the 
days of the Cold War, getting to the moon and Mars is not about proving 
one's superiority over a political enemy. It is about all of us, around 
the world, working together for the common benefit.''\6\
---------------------------------------------------------------------------
    \6\ Europe's United Response to U.S. Space Plans. European 
Commission press release, February 18, 2004.
---------------------------------------------------------------------------
    Potential Role in the Exploration Initiative. European countries 
individually and through ESA could participate in the exploration 
initiative at many levels, including providing launch capacity, 
building and operating robotic and human spacecraft, providing 
scientific instruments, and providing astronauts. The United States has 
a long history of cooperation with ESA and individual European 
countries on scientific and human space flight programs, including the 
space shuttle and the International Space Station.

Russia
    Brief Overview. The Soviet Union launched the first satellite into 
space (Sputnik, 1957), the first person into space (Yuri Gagarin, 
1961), the first space station (Salyut 1, in 1971) and achieved many 
other space ``firsts.'' The Soviets conducted a broad space program 
similar to that of the United States, with spacecraft orbiting the 
Earth for scientific or applications purposes (military and civilian), 
probes sent to the Moon and Mars, and a robust human space flight 
program. Since 1967, Soyuz spacecraft have been used to take cosmonauts 
into space. The Soyuz has been upgraded several times, and is currently 
designated Soyuz TMA. The Soviets were not able to develop a Saturn V-
class launch vehicle capable of sending cosmonauts to the Moon during 
the 1960s, and concentrated instead on activities in Earth orbit, 
operating seven space stations from 1971-2001. The best known of these 
is the Mir space station complex (1986-2001). It was permanently 
occupied by cosmonauts from 1989-1999, and intermittently occupied in 
other years. Mir was deorbited in 2001. Crews sometimes included 
individuals from other countries, including the United States.
    Russia developed a space shuttle similar (but not identical) to the 
U.S. shuttle. Called Buran, it was launched only once, in 1988, without 
a crew. By this time, the Soviets had succeeded in developing a Saturn 
V-class launch vehicle, called Energia. Energia was launched only 
twice, however (including the Buran flight).
    Following the collapse of the Soviet Union in 1991, Russia sharply 
reduced funding for space activities. The Energia and Buran programs 
were discontinued. Yuri Koptev, who headed the Russian space agency 
from its founding in 1992 until March 2004, often said that the Russian 
space budget was approximately one-tenth of its level under the Soviet 
government. According to Mr. Koptev, the 2004 budget for Russian 
civilian space activities is $526 million.\7\
---------------------------------------------------------------------------
    \7\ Russian Aerospace Agency to Have $632 Million for 2004 Air, 
Space Craft Programs. Moscow Agentstvo Voyennykh Novostey WWW-Text in 
English, 1252 GMT, 29 Jan 04 (via Foreign Broadcast Information 
Service, hereafter FBIS).
---------------------------------------------------------------------------
    Russia restructured its space program in March 2004. The Russian 
Aviation and Space Agency, which Mr. Koptev headed, was split into two, 
with aviation programs transferred to one agency, and space programs 
placed in a new Federal Space Agency subordinate to the Ministry of 
Industry and Energy. Mr. Koptev was replaced by Col. Gen. Anatoly 
Perminov, who previously headed Russia's military space program. What 
impact, if any, these changes will have on U.S.-Russian space 
cooperation is not known at this time.
    The United States and the Soviet Union/Russia have cooperated in 
space activities since the early 1960s in space science and human space 
flight activities. The two countries conducted the Apollo-Soyuz Test 
Project in 1975 where a U.S. Apollo spacecraft docked with a Russia 
Soyuz spacecraft for two days of joint experiments. From 1995-1998, 
seven U.S. astronauts remained on Russia's space station Mir for long 
duration (several month) missions, Russian cosmonauts flew on the U.S. 
space shuttle seven times, and nine space shuttle missions docked with 
Mir to exchange crews and deliver supplies. Russia joined the U.S.-led 
International Space Station program in 1993 and Russians and Americans 
now routinely fly on each other's space vehicles and share duties on 
space station crews. Russia is currently providing the only access to 
the space station for crews and cargo while the U.S. space shuttle is 
grounded.
    Current Interest in Space Exploration. Although the Soviets were 
never able to send cosmonauts to the Moon, and funding for space 
activities declined dramatically after the collapse of the Soviet 
Union, Russian government and industry space officials continue to 
express strong interest in human exploration missions. At an 
international space conference in the fall of 2003, then-director of 
the Russian space agency, Yuri Koptev, outlined long-term Russian 
plans, including permanent human bases on the Moon and Mars. He added 
that ``we believe that an organization similar to the one for the ISS 
should be the basis for implementation of such ambitious projects.''\8\
---------------------------------------------------------------------------
    \8\ Morring, Frank. Big Plans. Aviation Week & Space Technology, 
Oct. 13, 2003, p. 29.
---------------------------------------------------------------------------
    Following President Bush's speech, however, Mr. Koptev expressed 
skepticism, saying that he thought it was ``a tool in the current 
election campaign'' \9\ and said ``It is necessary to drop emotions in 
order to see what real benefit people can derive from visiting these 
planets.'' \10\ Mr. Koptev's successor, Gen. Perminov, expressed a more 
favorable view, saying that he supports President Bush's initiative, 
and wants more international cooperation in Russian space activities 
overall.\11\ On April 12, 2004, in celebration of Cosmonautics Day, 
Russian President Putin stopped short of embracing such plans, but said 
that space ``was and remains an object of our national pride'' and only 
by developing its space industry can ``Russia claim leadership in the 
world.'' He added that the economic situation in Russia constrains the 
amount of funding available for space activities, but ``I want you to 
know that everyone in the leadership of the country understands that 
space activities fall into the category of the most important things.'' 
\12\
---------------------------------------------------------------------------
    \9\ Russian Space Chief Calls U.S. Space Plans an [sic] Campaign 
`Tool' for Bush. Moscow Agentstvo Voyennykh Novostey WWW-Test in 
English, 1052 GMT, 29 Jan 04 (via FBIS).
    \10\ Moscow ITAR-TASS in English, 1028 GMT, 17 Feb 04 (via FBIS).
    \11\ Pieson, Dmitry. Perminov Supports Moon/Mars Plans, 
International Cooperation. Aerospace Daily, 5 April 2004, p. 5.
    \12\ Russia: Putin Acknowledges Budget Problems in Space 
Exploration. Moscow, ITAR-TASS in English, 1730 GMT, 12 Apr 04 (via 
FBIS).
---------------------------------------------------------------------------
    Potential Role in the Exploration Initiative. The Russians could 
cooperate in the exploration initiative at many levels. They have a 
range of launch vehicles that are launched from three sites (Plesetsk, 
near the Arctic Circle; Svobodny, in eastern Siberia; and the Baikonur 
Cosmodrome, near the Aral Sea in Kazakhstan, which Russia leases from 
Kazakhstan). As noted, the heavy-lift Energia launch vehicle was 
discontinued, but possibly could be resurrected if sufficient funding 
were provided. If development of a new launch vehicle is required, 
Russian rocket engines could be used. Russia already builds the engines 
(RD-180s) for one of the U.S. launch vehicle families (Atlas).
    Russia has extensive experience in long-duration human space 
flight. Three Russian cosmonauts have stayed in space continuously for 
one year or more; the longest mission was 14\1/2\ months. (The longest 
any American has remained in orbit continuously is 6\1/2\ months.) The 
Russians also launched a series of Bion biosatellite missions that 
carried animals for life sciences experiments. NASA cooperated with 
Russia on some of these missions,\13\ and may be interested in using 
such free-flying spacecraft to augment research on the International 
Space Station.
---------------------------------------------------------------------------
    \13\ NASA's participation in the last two Bion flights, Bion 11 and 
12, in 1996-1997, was controversial, especially after a rhesus money 
used for the experiments on Bion 11 died during a post-flight 
examination. After an independent review, NASA suspended its 
participation in primate research on Bion 12.
---------------------------------------------------------------------------
    Russia also has considerable experience with the use of nuclear 
reactors in space, an area in which NASA is interested. Russia is the 
only country to have used nuclear reactors operationally in space (the 
United States has launched only one test reactor into space, in 1965). 
They were developed to power Radar Ocean Reconnaissance satellites 
(RORSATs) beginning in 1967, but the Soviets terminated their use after 
three incidents (in 1978, 1983, and 1988) in which spacecraft 
malfunctions caused, or nearly caused, radioactive material to return 
to Earth. Russia has less experience than NASA with radioisotope 
thermal generators (RTGs), another type of nuclear power source for 
spacecraft, but today provides the plutonium used in U.S. RTGs.
    Russia has launched many probes to the Moon, Venus, and Mars (see 
Appendix 1), and two to Halley's Comet. The most recent Russian Mars 
probes (Phobos 1 and 2, and Mars `96) involved extensive international 
cooperation

India
    Brief Overview. India conducted its first launch in 1979, and 
typically launches once or twice a year. India has three launch 
vehicles: the ASLV for low-Earth orbits, the PSLV for polar orbits, and 
the new GSLV for launches to geostationary orbit. Launches are 
conducted from Sriharikota, an island off the southeast coast of India. 
India hopes to enter the commercial launch services market using the 
GSLV.
    Most of India's satellites are test satellites related to the 
development of new or improved launch vehicles, or are for remote 
sensing. India also has purchased or built communications/weather 
satellites that are launched for India by foreign commercial space 
launch service providers. India's annual space budget is approximately 
$450 million.\14\
---------------------------------------------------------------------------
    \14\ Rohde, David. India's Lofty Ambitions in Space Meet Earthly 
Realities. New York Times, January 24, 2004, p. A3.
---------------------------------------------------------------------------
    One Indian, Rakesh Sharma, has flown in space, on a Russian 
spacecraft in 1984.\15\
---------------------------------------------------------------------------
    \15\ NASA astronaut Kalpana Chawla, who perished aboard the space 
shuttle Columbia in 2003, was born and raised in India, but had become 
a U.S. citizen.
---------------------------------------------------------------------------
    Current Interest in Exploration. In 2003, India announced plans to 
launch a robotic spacecraft to the Moon in 2007 and is inviting other 
countries to participate. India is offering to fly 10 kilogram payloads 
from interested countries for free. Canada, Germany, Russia, Israel, 
Europe, and the United States reportedly have expressed interest. The 
United States and India renewed cooperation in scientific areas, 
including space exploration, after the United States lifted sanctions 
imposed in 1998 following India's nuclear weapons tests.
    The head of the Indian Space Research Organization (ISRO), G. 
Madhavan Nair, has stated that the robotic lunar probe, Chandrayaan-1, 
is only the first step in India's space exploration plans. India's 
President Kalam and Prime Minister Vajpayee also have made supportive 
statements not only about robotic missions, but about eventual human 
space flights to Mars.
    Potential Role in the Exploration Initiative. India could offer 
launch services, and if its lunar probe is successful, that could open 
possibilities for other robotic missions.

Issues
    The exploration initiative is still in its earliest definition 
stages and is likely to take decades to complete. It is difficult to 
predict at this early stage what issues will arise as it is carried 
out. Among those likely to require early attention are specific 
questions concerning how to prevent unwanted technology transfer while 
not impeding cooperation, and how to protect the U.S. industrial base 
while encouraging international participation. Today, however, I would 
like to focus on three broader issues: who will join us, the line 
between cooperation and dependence, and whether a review of the U.N. 
space treaties is needed.
    Who Will Join Us? Many countries have aspirations to send human and 
robotic spacecraft to the Moon, Mars, and beyond. In virtually every 
discussion, the assumption is that these will be international 
undertakings because of their cost. While international projects are 
more difficult to manage, which may increase their total cost, the cost 
to each participant may be less than if the program were conducted by 
one nation alone. The President has invited international participation 
in a U.S.-led exploration initiative. The questions are what countries 
do we want to include, and will they want to join?
    Several factors weigh in decisions about who to invite to join 
international projects. These include not only who can offer needed 
capabilities and funding, but political relationships. In a program 
such as this, likely to span several decades, the latter can be 
particularly complicated. Few would have expected in the 1980s that 
Russia would be a partner in ISS a decade later, and the only country 
capable of sending people and cargo to it today. Not surprisingly, in 
conjunction with the President's speech, NASA's first outreach was to 
its partners in the International Space Station program, but the 
question on many minds is whether China will be included in the new 
initiative. At a press conference after President Bush's speech, NASA 
Administrator O'Keefe was asked that question. He responded that there 
is an opportunity to open that debate, but did not want to speculate on 
its outcome Congress may wish to consider the advantages and 
disadvantages of having China as a partner, or as a competitor, in the 
exploration initiative.
    After we identify whom we want to invite, the question will be 
whether they will agree to join us. The United States has a rich 
history of international cooperation, and many countries have 
benefitted from it. We also have, by far, the most financial resources. 
NASA's budget is five times that of ESA and 30 times that of the 
Russian space agency. But for all of the successes of U.S.-led 
international cooperation, there have been strains as well. In any 
international space endeavor, compromises and adjustments must be made. 
The United States has demonstrated flexibility when partners have not 
been able to fulfill their promises, and others have had to adjust to 
changes in U.S. plans. The International Space Station is a prime 
example of both. As the leader of that project, though, there is a 
greater impact when the United States changes its plans, and there have 
been many throughout the past two decades. Now, the President's 
exploration initiative involves another major change, with termination 
of the space shuttle program as soon as space station construction is 
completed, and ending NASA's use of ISS by FY 2017. The President 
assured the ISS partners that the United States would fulfill its 
obligations, but it is not clear how that will be accomplished without 
the shuttle.
    Only the partners themselves can answer the question of whether 
they view ISS as a positive or negative experience, but it necessarily 
will factor into their judgments about the current offer. Another 
factor is what role they would play in setting the goals and objectives 
of the exploration initiative. So far, the message is that they are 
being invited only to help ``achieve this set of American, U.S. 
objectives,'' as NASA Administrator O'Keefe stated after the 
President's speech.
    Whether they will want to participate under that condition, or look 
for other opportunities where they might be able to develop a shared 
vision, is not clear. With the end of the Cold War, and the emergence 
of more countries with launch capabilities, the United States can no 
longer assume that traditional partners like Europe, Japan, and Canada 
would necessarily choose to join with the United States, instead of 
Russia or China, for example.
    How Dependent Should the U.S. Be on International Partners? 
Traditionally, NASA has established cooperative programs in a manner 
such that other countries were not in the ``critical path''--that is 
the program could be accomplished even if the foreign partner did not 
fulfill its obligations. This policy began to change when Russia joined 
the space station program in 1993. Although Congress directed that 
Russian participation should ``enhance and not enable'' the space 
station,\16\ the revised design was clearly dependent on Russia for 
life support, emergency crew return, attitude control, reboost, and 
other functions, especially in the early phases of space station 
construction. Today, because of the space shuttle Columbia accident, 
NASA is completely dependent on Russia for taking astronauts to and 
from the space station, and delivering cargo.
---------------------------------------------------------------------------
    \16\ H. Rept. 103-273, to accompany H.R. 2491, the FY1994 VA-HUD-IA 
appropriations bill (P.L. 103-124).
---------------------------------------------------------------------------
    The situation today demonstrates the value of international 
cooperation, but also raises the question of whether the United States 
wants to put itself in the position of being dependent on other nations 
to execute its space activities. As noted, one of the two major U.S. 
launch vehicle families, Atlas, is dependent on engines designed and 
built in Russia. Under the President's initiative, U.S. access to the 
space station between 2010 (when the shuttle is retired) and 2014 (when 
the new Crew Exploration Vehicle is available) also would be dependent 
on Russia. While some view that as similar to the situation today, it 
would, in fact, be quite different. The reasons are too complex to 
discuss fully in this statement (see CRS Issue Brief IB93017), but 
briefly, today, there is an agreement in place where Russia is 
launching U.S. crews and cargo to ISS at no cost to NASA. It expires in 
2006, however, and no agreement has been negotiated for 2010-2014. 
Russia could charge whatever price it wanted for those services, and if 
the Iran Nonproliferation Act is still in effect, it is not clear if 
NASA could pay. There also is a difference between the emergency 
situation today, necessitated by the Columbia tragedy, and an 
intentional decision to terminate NASA's ability to launch astronauts 
into space and hope that the political relationship with Russia remains 
stable and an agreement can be negotiated to enable U.S. astronauts to 
continue working aboard ISS. In this sense, the President's decision 
may be interpreted as forgoing ``assured human access to space.'' To 
the extent the decision could create a condition where U.S. astronauts 
might not be able to work aboard ISS, a facility being built largely at 
U.S. taxpayer expense, Congress may choose to explore its implications. 
More broadly, where to draw the line between cooperation and dependence 
might be an issue of congressional interest.
    Are New International Treaties or Principles Needed? The United 
States is a party to four U.N. treaties that regulate space activities: 
the Outer Space Treaty, the Astronaut Rescue and Return Agreement, the 
Registration Convention, and the Liability Convention. None of the 
major space faring countries, including the United States, is a party 
to a fifth U.N. space treaty, the Moon Agreement, which focuses on 
exploitation of the Moon.\17\ A brief synopsis of the five space 
treaties is included in Appendix 2. The U.N. also developed several 
legal principles for space activities, including Principles Relevant to 
the Use of Nuclear Power Sources in Outer Space, that could impact 
exploration plans.
---------------------------------------------------------------------------
    \17\ The 10 countries that are parties to the Moon Agreement 
(meaning they have both signed and ratified it) are Australia, Austria, 
Chile, Kazakhstan, Mexico, Morocco, The Netherlands, Pakistan, 
Philippines, and Uruguay. Five others have signed it (France, 
Guatemala, India, Peru, and Romania), but have not ratified it, so are 
not bound by its provisions.
---------------------------------------------------------------------------
    Even before President Bush's announcement, some observers were 
suggesting that it was time to review the space treaties to determine 
if any changes or new agreements are needed to reflect the growing role 
of the private sector in space. The treaties were negotiated in an era 
when space programs were conducted by governments, not private 
entities. There is growing debate about whether or not the treaties 
preclude private property rights in space, for example. These issues 
have not been the subject of intense interest in recent years because 
the likelihood of any nation or company setting up mining operations, 
for example, on the Moon or other celestial bodies has seemed remote. 
With President Bush's announcement, however, that day may be drawing 
nearer, and a review of the space treaties may be in order.

Conclusion
    As is often said, to be a leader, one must have followers. With the 
wider variety of international cooperative opportunities available 
today, potential partners might want a stronger voice in deciding what 
is to be done and how--to have a shared vision, not just a U.S. 
vision--and choose other international arrangements.
    The United States still has by far the largest budget for civilian 
space activities, however. That fact, coupled with the large number of 
successful U.S.-led cooperative space endeavors over the past 46 years, 
may convince other countries to join us rather than establish 
partnerships of their own without U.S. involvement.
    At the same time, questions may arise about whether the United 
States may be going too far in becoming dependent on other countries 
for human access to space. Choosing to make the U.S. human space flight 
program dependent on Russia for at least 4 years is a significant 
departure from past policy. While it may signal a broader attitude 
towards cooperation, the advantages and disadvantages of losing 
``assured human access to space'' may be a timely topic for discussion.
    The exploration initiative offers the United States an opportunity 
to affirm its historic role in fostering international cooperation in 
space. The key will be whether we can adapt to the changed landscape of 
cooperative possibilities, and continue to lead the world in the 
peaceful exploration of space.

Appendix 1: European, Russian, and Japanese Spacecraft Launched to the 
                            Moon and Beyond

------------------------------------------------------------------------
     Spacecraft        Launch Year                  Mission
------------------------------------------------------------------------
                                 Europe
------------------------------------------------------------------------
Helios 1 and 2       1974, 1976       German spacecraft, launched by
                                       NASA, to study the Sun.
------------------------------------------------------------------------
Giotto               1985             ESA spacecraft, launched by ESA,
                                       that intercepted Halley's Comet
                                       in 1986.
------------------------------------------------------------------------
Ulysses              1990             ESA spacecraft, launched by NASA,
                                       in polar orbit around the Sun.
------------------------------------------------------------------------
Solar &              1995             ESA spacecraft, launched by NASA,
 Heliospheric                          at Sun-Earth L-1 Lagrange point
Observatory (SOHO)                     for solar-terrestrial studies.
------------------------------------------------------------------------
Huygens              1997             ESA probe that is attached to the
                                       U.S. Cassini spacecraft, which
                                       will reach Saturn in July 2004.
                                       The probe will detach from
                                       Cassini and descend through the
                                       atmosphere of Titan, one of
                                       Saturn's moons.
------------------------------------------------------------------------
Mars Express/Beagle  2003             ESA spacecraft, launched by
 2                                     Russia, that is in orbit around
                                       Mars. Contact with Beagle 2, a
                                       lander, was lost after it
                                       separated from Mars Express.
------------------------------------------------------------------------
SMART-1              2003             ESA spacecraft, launched by ESA,
                                       that is enroute to the Moon. Due
                                       to reach lunar orbit in early
                                       2005.
------------------------------------------------------------------------
Rosetta              2004             ESA spacecraft, launched by ESA,
                                       that is scheduled to reach Comet
                                       67P/Churyumov-Gerasimenko in
                                       2014, enter orbit around it, and
                                       land a small spacecraft on its
                                       icy nucleus.
------------------------------------------------------------------------
                           Soviet Union/Russia
------------------------------------------------------------------------
Luna 1-24            1959-1976        Series of spacecraft to impact,
                                       orbit, or land on the Moon,
                                       including two rovers (Lunokhod 1
                                       and 2), and three robotic sample
                                       return missions (Luna 16, 20, and
                                       24). Luna 2, in 1959 was first
                                       ``landing'' (impact) on Moon.
                                       Luna 3, also in 1959, sent back
                                       first pictures of the far side of
                                       the Moon. Luna 10, in 1966, was
                                       first spacecraft to orbit the
                                       Moon. Luna 16, in1970, was the
                                       first robotic sample return
                                       mission. Lunokhod 1 (Luna 17), in
                                       1970, was first robotic lunar
                                       rover. This series experienced a
                                       mixture of successes and
                                       failures.
------------------------------------------------------------------------
Zond 1-3             1962             Zond 1 went to Venus, but was not
                                       operating when it reached that
                                       planet. Zond 2 and 3 made fly-bys
                                       of Mars, but were not operating
                                       when they reached the planet.
------------------------------------------------------------------------
Zond 4-8             1968-1970        Automated precursors for human
                                       trips to the Moon.
------------------------------------------------------------------------
Mars 1-7             1960-1973        Contact with Mars 1 was lost
                                       before it reached the planet..
                                       Mars 2 and 3 were orbiter/lander
                                       pairs. The orbiters were
                                       successful, the landers were not
                                       (both reached the surface, but
                                       only Mars 3 transmitted
                                       thereafter, and only for 20
                                       seconds). Mars 4 and 5 were
                                       orbiters; Mars 6 and 7 were
                                       landers. Mars 5 was a success.
                                       Mars 4 and 7 missed the planet.
                                       Mars 6 transmitted during
                                       descent, but contact was lost
                                       before landing. Western analysts
                                       believe there were other Mars
                                       attempts that failed and were
                                       given generic Kosmos
                                       designations.
------------------------------------------------------------------------
Phobos 1 and 2       1988             Intended to study Phobos, one of
                                       the moons of Mars, and Mars
                                       itself. Contact with Phobos 1 was
                                       lost before it reached Mars.
                                       Phobos 2 successfully orbited
                                       Mars and returned data, but
                                       contact was lost when it
                                       maneuvered to study Phobos.
------------------------------------------------------------------------
Mars 96              1996             Failed attempt to send a
                                       spacecraft to Mars that had an
                                       orbiter, two small landers, and
                                       two surface penetrators.
                                       Spacecraft did not reach the
                                       correct orbit, and reentered
                                       Earth's atmosphere.
------------------------------------------------------------------------
Zond 1, Venera 1-16  1961-1983        Series of probes to fly-by, orbit
                                       or land on Venus. Mixture of
                                       successes and failures. Venera 7,
                                       in 1970, made first successful
                                       landing on Venus. Venera 9, in
                                       1975, was first spacecraft to
                                       transmit pictures from the
                                       surface of another planet. Venera
                                       13 and 14, in 1982, used drills
                                       to obtain core sample for in situ
                                       chemical analysis. Venera 15 and
                                       16, in 1983, carried side-looking
                                       radars to map Venus' surface from
                                       a polar orbit.
------------------------------------------------------------------------
Vega 1 and 2         1984             Dropped off landers at Venus, then
                                       intercepted Halley's Comet in
                                       March 1986.
------------------------------------------------------------------------
                                  Japan
------------------------------------------------------------------------
Sakigake and Suisei  1985             Two spacecraft that studied
                                       Halley's Comet.
------------------------------------------------------------------------
Muses A              1990             Engineering test for future lunar
                                       probes.
------------------------------------------------------------------------
Nozmoni              1998             Failed attempt to orbit Mars.
------------------------------------------------------------------------

            Appendix 2: Synopsis of the U.N. Space Treaties

    The United States is a party to the first four of the following 
treaties, which were developed through the United Nations Committee on 
the Peaceful Uses of Outer Space (UNCOPUOS). It is not a party to the 
fifth, the Moon Agreement, nor are any other of the major spacefaring 
countries. The numbers of ratifications and signatures to these 
treaties shown below are current as of January 2003 (the most recent 
data available). The texts of the treaties, and the lists of 
signatories, (``States Parties'') are available at http://
www.oosa.unvienna.org/SpaceLaw/spacelaw.htm.

Treaty on Principles Governing Activities of States in the Exploration 
        and Use of Outer Space Including the Moon and Other Celestial 
        Bodies (the ``Outer Space Treaty'') 
Entered into force 10 October 1967. 98 ratifications and 27 signatures.

  <bullet> Exploration and use of outer space* shall be for the benefit 
        of, and in the interests of, all countries and shall be 
        province of all mankind.

  <bullet> Outer space is free for exploration and use by all States 
        and there shall be free access to all areas of celestial 
        bodies.

  <bullet> There shall be freedom of scientific investigation in outer 
        space and States shall facilitate international cooperation in 
        such investigations.

  <bullet> Outer space is not subject to national appropriation by 
        claim of sovereignty, by means of use or occupation, or by any 
        other means;

  <bullet> Nuclear weapons or other weapons of mass destruction shall 
        not be placed in orbit or on celestial bodies or stationed in 
        space in any other manner.

  <bullet> The Moon and other celestial bodies shall be used 
        exclusively for peaceful purposes.

  <bullet> The establishment of military bases, installations or 
        fortifications, the testing of any type of weapons and the 
        conduct of military maneuvers on celestial bodies shall be 
        forbidden; the use of military personnel for scientific 
        research or other peaceful purposes is permitted.

  <bullet> Astronauts shall be regarded as envoys of all mankind.

  <bullet> States Parties are responsible for national space 
        activities, whether undertaken by governmental or non-
        governmental (e.g., private sector) entities; the activities of 
        non-governmental entities require authorization and continuing 
        supervision of the appropriate State Party.

  <bullet> States Parties are internationally liable to other States 
        Parties for damage caused by their space objects.

  <bullet> Studies and exploration of outer space are to be conducted 
        so as to avoid harmful contamination and adverse changes to the 
        environment of Earth resulting from the introduction of 
        extraterrestrial matter.

  <bullet> All stations, installations, equipment and space vehicles on 
        the Moon and other celestial bodies shall be open to 
        representatives of other States Parties on a basis of 
        reciprocity.
*Where ``outer space'' appears in this synopsis, the full phrase is 
        ``outer space, including the Moon and other celestial bodies.'' 
        It was shortened here for brevity's sake.
Agreement on the Rescue of Astronauts, Return of Astronauts, and Return 
        of Objects Launched into Space (the ``Astronaut Rescue and 
        Return Agreement'')

Entered into force 3 December 1968. 88 ratifications, 25 signatures, 
        and 1 acceptance of rights and obligations.

  <bullet> States Parties are to render humanitarian assistance to 
        astronauts in distress or who have made an emergency or 
        unintended landing on their territory, and to return the 
        astronauts to the launching authority.

  <bullet> States Parties are to return objects launched into outer 
        space or their component parts to the launching authority if 
        they land on their territory.

Convention on International Liability for Damage Caused by Space 
        Objects (the ``Liability Convention'')

Entered into force 1 September 1972. 82 ratification, 25 signatures, 2 
        acceptances of rights and obligations.

  <bullet> Procedures are created for presenting and resolving claims 
        for damages caused by space objects on the Earth, to aircraft, 
        or to other space objects.

  <bullet> The launching state is absolutely liable for damage caused 
        on Earth's surface or to aircraft in flight; if the damage is 
        caused elsewhere (e.g., in space), the launching state is 
        liable only if the damage is due to its fault or the fault of 
        persons for whom it is responsible.

Convention on Registration of Objects Launched into Outer Space (the 
        ``Registration Convention'')

Entered into force 15 September 1976. 44 ratifications, 4 signatures, 
        and 2 acceptances of rights and obligations.

  <bullet> States Parties are to maintain a national register of 
        objects launched into space.

  <bullet> States Parties must report certain information about the 
        launch and payload to the United Nations as soon as 
        practicable, and notify the U.N. when an object no longer is in 
        orbit.

Agreement Governing the Activities of States on the Moon and Other 
        Celestial Bodies (the ``Moon Agreement'')

Entered into force 11 July 1984. 10 ratifications and 5 signatures.

  <bullet> Exploration and use of the Moon shall be carried out for the 
        benefit and in the interest of all countries, and due regard 
        shall be paid to the interests of present and future 
        generations and to the need to promote higher standards of 
        living and conditions of economic and social progress and 
        development in accordance with the U.N. charter.

  <bullet> The Moon and its natural resources are the common heritage 
        of mankind; neither the surface nor the subsurface nor any part 
        thereof shall become property of any State, international 
        intergovernmental or non-governmental organization, national 
        organization or nongovernmental entity or of any natural 
        person.

  <bullet> States Parties shall undertake to establish an international 
        regime to govern the exploitation of the Moon's natural 
        resources as such exploitation is about to become feasible. The 
        regime's purposes include the orderly and safe development of 
        the Moon's natural resources, the rational management of those 
        resources, the expansion of opportunities to use those 
        resources, and an equitable sharing by all States Parties in 
        the benefits derived from those resources, whereby the 
        interests and needs of the developing countries, as well as the 
        efforts of those countries which have contributed either 
        directly or indirectly to the exploration of the Moon, shall be 
        given special consideration.

  <bullet> States Parties bear international responsibility for 
        national activities on the Moon, whether by governmental or 
        non-governmental entities. Activities of non-governmental 
        entities must take place only under the authority and 
        continuing supervision of the appropriate State Party.

  <bullet> All space vehicles, equipment, facilities, etc. shall be 
        open to other States Parties so all States Parties may assure 
        themselves that activities of others are in conformance with 
        this agreement. Procedures are established for resolving 
        differences.

    Senator Brownback. Thank you. We sure appreciate that.
    Mr. Oberg.

  STATEMENT OF JAMES OBERG, AEROSPACE OPERATIONS CONSULTANT, 
                 SOARING HAWK PRODUCTIONS, INC.

    Mr. Oberg. Again, Senator, thank you for the opportunity to 
come here and share some of our insights and experiences 
through the years, both individually and with many of the 
people and others have talked about. As a professional rocket 
scientist, I've worked 22 years at the Johnson Space Center, 
I've had the opportunity to learn real space operations and to 
judge other countries' reports against the hard engineering. 
That's been a good key to judge Russian reports back in the 
Soviet days when they had mysteries and they had things they 
left out, things that were partial truth, even things that were 
distortions. And it has been very useful in recent years to 
look at the Chinese program.
    We're very close, as we know now, to the Chinese beginning 
what they call phase 3 of their space program. Phase 1 was the 
first artificial satellite, phase 2 the flight of Yang Liwei 
last October, and phase 3 in their explicit terms is the 
beginning of lunar exploration. They have a probe, they call it 
the Chang'e, and more specifically and recently, the Chang'e 1, 
which I think has some significance not being the only probe in 
the series, but perhaps just the first. That will go into lunar 
orbit as early as December 2006.
    They have also shown with their human space flight last 
October that they are willing to spend a lot of money. The 
number given was more than $2 billion between the decision to 
go ahead with manned space flight and the very first flight. 
It's not $2 billion per flight, but it's a total $2 billion in 
investment. That's a lot of money, and even at Chinese wage 
levels, it shows a major commitment to that type of program.
    They've also been very forthright, much more so than the 
Soviets in the early days of the space race, about the 
technology of the program and about their intentions and about 
the people involved in it, and this vast amount of information 
which they are releasing is of great value to us to analyze 
what they're doing, because we can see what they're releasing 
far more than what they can control. We can see things in their 
pictures that show the identity of certain hardware, we can 
make deductions from comments they make that other things must 
be true because of space engineering. This helps us see a whole 
lot into their program and gives us a great deal of confidence 
that some of our guesses and some of our predictions are 
relatively close.
    They have said, and it looks like they are serious about 
being motivated to do space for a series of reasons. They 
intend to use the space challenge to create a high-tech 
capability, to create high technology, then to validate those 
capabilities in the ultimate testing ground of actual space 
flight, and having validated, to persuade the rest of the world 
that the technology is valid, that is, to enhance the 
credibility in the minds of Chinese and foreigners in their 
high technology across the board. It enhances their high 
technology commercially, it enhances their high technology 
weapons systems militarily, it provides multiple benefits, cash 
value to their country for having done space technology 
successfully and as successfully as they've carried it out, 
especially with the Shenzhou manned program.
    In looking at some of the strengths of their program, in 
the interviews they've given and the comments they've made, I 
think one clear and very impressive achievement they have is 
their strategy of learning from the whole rest of the world, 
learning from the world all the activities in space in every 
other nation of the past history. Now, there are a lot of 
issues that some of their spacecraft are copies. Some of them 
are superficially copies. Some systems, such as the space suit 
they wear inside the Shenzhou capsule are obviously Chinese 
manufactured versions of the suit the Russians provided them 
with.
    Others look similar, have similar functions, but most have 
been developed and tested entirely with Chinese engineering. 
But the strategy to basically learn, to basically not to repeat 
anybody else's mistakes in space--they made some of their own 
original mistakes, but only once or twice--but not to repeat 
things they've seen done wrong in other countries I think is a 
very powerful tool to let them do things they intend to do in 
the future. In fact, they are so good at learning from other 
people's experience, I wish we could learn from that strategy 
and I wish that in our own country and at NASA and other 
programs, they would pay more attention to the experience of 
other people as well as their own experience in the past. I 
think that's a drawback in our program.
    The second major power, the second major strength in the 
Chinese program is demographic. They have been staffing up 
their program in the past 10 years, and have, as we now 
believe, more than 200,000 people in their industry with an 
average age somewhere in the low 30s. This is a team of people 
that are going to work together, have already solved problems 
together, and will keep solving problems together for decades 
to come.
    Those were the major strengths in the Soviet program. They 
staffed up their program in a big rush at the beginning of the 
space age, they established communications, they established 
teams, they worked together, and it was the perfect way to 
build a space program as long as you assume that the workers 
live forever. They are now in the Soviet Union facing at least 
half of the workers that are left in the program will be 
replaced, they have to be replaced in coming years, because 
they're now, the average age in many Soviet space engineering 
areas is beyond the average life expectancy of the Russian 
male, and this is a serious challenge they have. The Chinese 
are just the opposite, the U.S. is somewhere in between.
    There is a weakness that the Chinese have that may get in 
the way of some of their ambitions. They brag in their own 
policy papers of the--they use the most centralized control, 
top-down direction of all the research, all the solutions to 
their technology, and a very narrow focused approach toward 
some of these challenges. Now, in the real world of space 
engineering, as we know from our own experience, often the 
problems you run into, which are not forecast by the bosses, 
are solved by answers and technologies in the next office over 
or the next division over or some other entire organization, 
and it is very difficult, if not impossible, for enough 
problems to accurately be reported up the chain so that they 
can be solved at the top.
    It's possible, and the experience with Shenzhou suggests 
that the people doing the program were doing a lot of their own 
problem solving, and that the Chinese official pronouncement 
that it will be the director from the top that is responsible 
for their success is for show, is just a way of having the 
central regime gain the credit from the success of their 
program. Whatever they have done though, their program has been 
successful. It's been successful in a lot of very good, 
prudent, slow, methodical, perhaps cautious or even 
overcautious small steps, building, taking a launch vehicle 
family, for example, expanding on those launch vehicles, 
lengthening the tanks, putting higher pressure engines, putting 
more strap-on, extra booster stages.
    But they've now reached the point where they can no longer 
expand their launch capabilities by small increments. They have 
a big step in front of them now, and it's a big step that will 
determine the future of their program. Can they go to a larger 
booster system? Tell call it the Long March 5 or the Chang 
Zheng 5 family, with an entirely new set of fuels, a larger 
diameter central stage that can't be transported by rail to the 
launch site they now have, a vehicle that can go from their 
current maximum about 10 tons in lower-Earth orbit to 25 tons. 
The new vehicle would give them the opportunity to do heavy 
commercial communication satellites, which they put as their 
number one priority, the ability to put large payloads in 
interplanetary transfer to the moon and elsewhere to launch a 
near-class space station, which they've said is a goal in the 
mid term, and the capability to launch a Shenzhou-type vehicle 
with astronauts on lunar flights.
    Now, between now and getting there, they have many steps 
they have to make, and we're going to watch with great 
interest. Using the talents and skills they already have shown 
and perhaps their management problems that could be in the way, 
we're going to watch them build this booster and we're going to 
clearly have insight into the program. If in 5 or 6 years 
they've built a launch pad, test flown this Long March 5, it's 
called Long March 5-500 series of booster, if it's flying 
before the end of this decade, it can do many things including 
opening the path for Chinese astronauts to the moon.
    At the point they can make the decision or need to make the 
decision, they'll look at our own schedule and probably go back 
to their reasons for doing space flight, which is to enhance 
the credibility of their own technology. A manned lunar program 
or manned lunar fly-by ahead of NASA, ahead of anyone else, 
would be the kind of thing that they clearly already are paying 
for in other programs and would like to buy again. Well, we may 
see them do that.
    In terms of whether we can take part in cooperation with 
them, clearly they like cooperation. It's one of the ways they 
obtain technology and know-how. Our own cooperative programs 
can teach us a lot, one of which is that, like with the 
International Space Station, the biggest international space 
cooperation project ever, we now realize that the promises that 
were made about bringing the Russians into the program, that it 
would make it cheaper, faster, safer, better, promises that 
NASA came here and told Congress about, were none of them 
fulfilled, and they're not fulfilled for reasons that in some 
cases had been forewarned.
    Parts of ISS that have worked best tend to be not the 
modules that are all built together with components from each 
different partner, but components side by side, the Russian 
module and the U.S. module with supplemental capabilities for 
atmospheric revitalization, for example, or most critically, 
for transportation, and the saving grace of the ISS design is 
that we have two independent access transportation methods to 
the station. When Soyuz and Progress were not adequate, the 
Shuttle took up the slack and we kept a record of how much the 
Russians owed us for that. Now with the Shuttle down, the 
Russians have taken up the slack and they're doing the 
bookkeeping to see who owes what.
    Perhaps with the Chinese access, a Shenzhou-type vehicle 
with humans beyond low-Earth orbit, we may see a time 10 years 
from now when more than one country are in the process of 
developing independent access to get people into lunar orbit 
and beyond and we're not considering it a bad thing at all or 
wasteful, far from it. ISS has shown us that often stand-alone 
capabilities by two different teams of partners can often work 
in parallel and create something far more reliable and useful 
than either alone.
    But for the most part, the Chinese have not expressed 
interest either in ISS or other seriously integrating their 
programs. They're putting their space station and their 
spacecraft into an orbit that is incompatible with the 
International Space Station. They are building ground tracking 
sites for things like return to Earth that would not be in the 
right location for spacecraft coming back to Earth, to China, 
from the International Space Station, so their building these 
facilities is a clue that they are not looking for any near-
term cooperation with ISS.
    They have their own reasons. As I said before, and we'll go 
into at your interest, the reasons are satisfied by them 
pushing on alone or taking part or being rivals of other 
groups, other countries, other partners, and it is a cash value 
to them that they are seen as among the top with space powers 
on Earth. They clearly show they want to do that and they can 
spend the money to get there and that they have the talent, 
they have the people in place now ready for any task the 
Government decides.
    Thank you.
    [The prepared statement of Mr. Oberg follows:]

  Prepared Statement of James Oberg, Aerospace Operations Consultant, 
                     Soaring Hawk Production, Inc.

    Thank you for the opportunity to testify before this subcommittee 
on the question of Chinese intentions regarding lunar exploration. Both 
in competition and cooperation, China and the United States will be 
mutually interacting in this arena for decades to come.
    This statement will examine the recent Chinese manned space flight, 
Shenzhou-5, to examine what it can reveal about Chinese approaches to 
selecting space goals and developing space technology, particularly its 
practices regarding acquisition of foreign space technology and its 
exploitation of usable lessons from foreign space experience. The 
Chinese plan for evolution of the Shenzhou program and development of 
an independent orbital laboratory is becoming clear. Following this, 
the question of Chinese national goals in space, and expected benefits 
from space activities, will be addressed.
    Then the issue of lunar activities can be considered in the context 
of known Chinese practices and official policies. A broad and 
aggressive program for unmanned lunar exploration can be discerned. In 
the context of high-spirited and enthusiastic press accounts of future 
Chinese space triumphs, the potential for even more ambitious lunar 
goals involving Chinese astronauts can also be balanced against 
predictable Chinese technical capabilities and national policy 
requirements.

The Flight of Shenzhou-5
    On October 15, 2003, at the Jiuquan Space Center near the edge of 
the Gobi Desert in northern China, the spaceship Shenzhou 5 blasted off 
at a date and time that had leaked to the world in advance. The 
spacecraft--its name means ``divine vessel'' in Chinese--was nearly 
nine meters long and weighs almost eight metric tons, substantially 
bigger than the Russian Soyuz space vehicle still in use, and similar 
in size to NASA's planned Constellation spacecraft whose final design 
has not yet even been selected.
    The first manned flight of the Shenzhou has already had profound 
political, social, and diplomatic echoes. In addition to garnering 
international prestige, China hopes that its human spaceflight program 
will stimulate advances in the country's aerospace, computer and 
electronics industries. Space successes will raise the attractiveness 
of exports and enhance the credibility of military power.
    China's near-term space plans are quite clear: It will establish 
its own space station in Earth orbit. Within a decade, China's space 
activities may well surpass those of Russia and the European Space 
Agency. And if China becomes the most important space power after the 
U.S., an entirely new ``space race'' may begin.

China's Use of Foreign Space Technology
    A significant factor in China's success, and a major influence on 
its future space achievements, is the degree to which its program 
depends on foreign information. The manned Chinese spaceship used the 
same general architecture of both the Russian Soyuz and the American 
Apollo vehicles from the 1960s. The cabin for the astronauts, called a 
Command Module, lies between the section containing rockets, electrical 
power, and other supporting equipment (the Service Module) and a second 
inhabitable module, in front, to support the spacecraft's main function 
(for the Soviets, the Orbital Module, and for Apollo, the Lunar 
Module). So despite superficial resemblances and widespread news media 
allegations, the Shenzhou is in no way merely a copy of the Russian 
Soyuz--nor is it entirely independent of Russia's experience or 
American experience.
    Its Service Module, for example, has four main engines, whereas 
Apollo's service module had only one, and Soyuz has one main and one 
backup engine. Also, Shenzhou's large solar arrays generate several 
times more electrical power than the Russian system. And unlike Soyuz, 
the Chinese orbital module carries its own solar panels and independent 
flight control system, allowing it to continue as a free-flying 
unmanned mini-laboratory long after the reentry module has brought the 
crew back to Earth.
    On the other hand, one clear example of outright Chinese copying is 
in the cabin pressure suits, used to protect the astronauts in case of 
an air leak during flight (A much more sophisticated suit is used for 
spacewalks.) The Chinese needed a suit with similar functions, so after 
obtaining samples of Russia's Sokol design they copied it exactly, 
right down to the stitching and color scheme. Other hardware systems 
that are derived from foreign designs include the ship-to-ship docking 
mechanism and the escape system that can pull a spacecraft away from a 
malfunctioning booster during launching.
    Chinese officials have made no secret of such technology transfers. 
A lengthy article on Chinese space plans appeared in the Xinhua News 
Agency's magazine Liaowang in 2002: ``After China and Russia signed a 
space cooperation agreement in 1996, the two countries carried out very 
fruitful cooperation in docking system installations, model spaceships, 
flight control, and means of life support and other areas of manned 
space flight. Russia's experience in space technology development was 
and is of momentous significance as enlightenment to China.''
    The mention of docking systems is especially illuminating. Although 
Russia and the U.S. have used different types of docking mechanisms 
over the years to link spacecraft in orbit, photographs of Shenzhou 
indicate that the Chinese have chosen a Russian variant called the 
APAS-89. The device consists of a pressurized tunnel 80 centimeters in 
diameter surrounded by sloping metal petals that allow any two units of 
the same design to latch together. Originally developed by a U.S.-
Soviet team in 1973-1975 for the Apollo-Soyuz Test Project and 
perfected for use by Buran space shuttles visiting the Russian Mir 
space station [which never happened, although one visiting Soyuz 
vehicle was equipped with the system], the APAS-89 is now used to dock 
NASA's space shuttles to the International Space Station (ISS). 
Although China is primarily interested in docking its spacecraft with 
its own small space stations, the decision to employ the APAS-89 
mechanism would allow Shenzhou to link with both the space shuttles and 
the ISS.
    Regarding the ``escape system'' [a ``tractor rocket'' design 
developed by NASA and adopted by the Russians], launch vehicle manager 
Huang Chunping told a newspaper reporter about one particular 
difficulty in the design, the aerodynamic stabilization flaps. ``This 
is the most difficult part,'' he explained. ``We once wanted to inquire 
about it from Russian experts, but they set the price at $10 million. 
Finally we solved the problem on our own.'' This pattern (of studying 
previous work but then designing the actual flight hardware 
independently) was followed on most other Shenzhou systems, and it has 
already paid off.
    What is more, China has launched four ocean-going ships to track 
its missiles and spacecraft. These Yuan Wang (``Long View'') ships have 
been deployed in the Pacific Ocean to monitor military missile tests 
and in the Indian Ocean to control the maneuvering of satellites into 
geosynchronous orbit. The ships are sent into the South Atlantic, 
Indian and South Pacific Oceans to support the Shenzhou flights. The 
Russians used to have a similar fleet but scrapped it in the 1990s 
because of budget constraints. Rather than purchase the Russian ships, 
China built its own.
    Because some of the critical ground-control functions for the 
Shenzhou's return to Earth must be performed while the craft is over 
the South Atlantic, China signed an agreement with the African nation 
of Namibia in 2000 to build a tracking station near the town of 
Swakopmund. Construction started in early 2001 and was completed by 
year's end. Five permanent residents occupy the facility, and the staff 
expands to 20 during missions. The site lies under the reentry path of 
the Shenzhou, and because the craft's orbit has a different inclination 
than the International Space Station's, the Namibian base could not be 
used to track flights returning from there. This suggests that despite 
the Shenzhou's compatible docking gear, the Chinese seem to have no 
near-term interest in visiting the ISS.

Long-Range Strategies and Goals
    China's long-range strategy was laid out in a White Paper issued in 
2000 by the Information Office of the State Council. It stated that the 
space industry is ``an integral part of the state's comprehensive 
development strategy.'' And instead of developing a wide variety of 
aerospace technologies, China will focus on specific areas where it can 
match and then out-do the accomplishments of other nations.
    Further, China would develop all the different classes of 
applications satellites that have proven so profitable and useful in 
other countries: weather satellites, communications satellites, 
navigation satellites, recoverable research satellites, and earth 
resources observation satellites. It also will launch small scientific 
research satellites. A unique and highly significant feature of the 
Chinese space plan is its tight control from the top. As described by 
space official Xu Fuxiang in February 2001, ``China's various types of 
artificial satellites, in their research and manufacture, are all under 
unified national leadership . . .'' that will ``correctly select 
technological paths, strengthen advanced research, and constantly 
initiate technical advances. We must constantly select development 
paths where the technological leaps are the greatest.'' Strict funding 
constraints require selecting ``limited goals and focus[ing] on 
developing the . . . satellites urgently required by our country,'' and 
on determining which satellites ``are most crucial to national 
development.''
    The Maoist-style ``ideological idiom'' for this is: ``Concentrating 
superior forces to fight the tough battle and persisting in 
accomplishing something while putting some other things aside.''
    The value of tackling difficult space technology challenges was 
explicitly described in Xiandai Bingqi magazine (June 2000): ``From a 
science & technology perspective, the experience of developing and 
testing a manned spacecraft will be more important to China's space 
effort than anything that their astronauts can actually accomplish on 
the new spacecraft. This is because it will raise levels in areas such 
as computers, space materials, manufacturing technology, electronic 
equipment, systems integration, and testing as well as being beneficial 
in the acquisition of experience in developing navigational, attitude 
control, propulsion, life support, and other important subsystems, all 
of which are vitally necessary to dual-use military/civilian 
projects.''

The Next Steps
    In 2002, Liaowang magazine described the development plan for the 
manned space program: ``After it succeeds in manned space flight, China 
will very soon launch a cosmic experimental capsule capable of catering 
to astronauts short stays.'' This capsule is elsewhere described as ``a 
laboratory with short-term human presence,'' to be followed later on by 
a space station designed for long-term stays. In January 2003, unnamed 
officials provided further background to Xinhua News Agency reporters: 
``As the next step, China will endeavor to achieve breakthroughs in 
docking technology for manned spacecraft and space vehicles, and will 
launch a [space station]. After that it will build a long-term manned 
space station to resolve problems related to large-scale space science 
experiments and applied technology and to make contributions to 
mankind's peaceful development of outer space.''
    In February 2004, Wang Yongzhi, academician of the Chinese Academy 
of Engineering, and identified as chief designer of the Chinese manned 
space program, told the Zhongguo Xinwen She news agency in Beijing that 
the Shenzhou-6 mission would carry two astronauts for a week-long 
mission. ``Astronauts will have more opportunities for hands-on 
operation on board the Shenzhou-6,'' he stated. ``The astronauts will 
directly operate relevant spaceship-borne instruments and equipment to 
carry out a series of in-space scientific experimental work.'' No date 
was given, but most Chinese sources indicate that early 2005 is most 
likely.
    ``When conducting space rendezvous and docking experiments in the 
past,'' he explained, ``both the former USSR and the United States had 
to successively launch two spaceships in one experiment. At the time of 
devising a plan for China's space rendezvous and docking experiments in 
the future, we improved on the past achievements and considered making 
the Shenzhou spaceship's orbital capsule, left to continue moving in 
orbit, the target vehicle in space rendezvous and docking. When 
conducting a space rendezvous and docking experiment in the future, 
therefore, China will need to launch only one spaceship.''
    ``This plan is feasible, economical, and faster'' in its design, 
and he expects it to take four or five years to be implemented. Foreign 
experts consider this plan feasible and reasonable and give it 
excellent chances of success. On Chinese television, Wang added that 
following flights by Shenzhou-7 and Shenzhou-8 (perhaps in 2006-2007), 
China would launch ``a space station of larger scale with greater 
experimental capacity.'' A photograph of what appears to be a mockup of 
this module has been released. It resembles the Soviet Salyut-6 space 
station (1977-1980), but with a more modern ship-to-ship docking 
mechanism modeled on Soviet designs now used by the ISS.

Chinese Interest in Lunar Exploration
    In the enthusiasm surrounding the Shenzhou program, many Chinese 
scientists made bold promises to domestic journalists about ambitious 
future projects, especially the Moon. Many press comments are difficult 
to understand, and the problem of translation of unfamiliar technical 
nomenclature compels outside observers to be very cautious in 
interpreting them. For example, when Dr. Ouyang Ziyuan, identified as 
``chief scientist of the moon program'', is quoted as saying ``China is 
expected to complete its first exploration of the moon in 2010 and will 
establish a base on the moon as we did in the South Pole and the North 
Pole,'' great care must be taken in determining what--if anything--this 
really means for future space missions.
    Still, even Western observers also expected major new Chinese space 
missions. ``China intends to conduct a mission to circumnavigate the 
Moon in a similar manner as was carried out by Apollo-8 in 1968,'' 
noted the American engineering and analysis consulting company, the 
FUTRON Corporation, in its report, China and the Second Space Age, 
released the day of Yang's space launch. ``This mission will apparently 
involve a modified Shenzhou spacecraft and will be launched around 
2006,'' the report continued. And at a trade fair in Germany, 
spectacular dioramas showed Chinese astronauts driving lunar rovers on 
the Moon. But those exhibits seem to only be copies of U.S. Apollo 
hardware with flags added. There is little if any credible evidence 
that such hardware is even being designed in China for actual human 
missions to the Moon.
    According to Luan Enjie, chief of the China National Space 
Administration (CNSA), China's first lunar mission will be a small 
orbiting probe called ``Chang'e'' (the name of a moon fairy in an 
ancient Chinese fable). Pictures of the probe suggest it is to be based 
on the design of the Dong Feng Hong-3 communications satellite, which 
has already been launched into a 24-hour orbit facing China (the Cox 
Commission provided persuasive documentation that the original DFH-3 
was heavily based on European space technology). This lunar probe is 
expected to reach the moon in 2007, on a recently-accelerated launch 
schedule.
    Chinese press reports also describe widespread university research 
on lunar roving robots, and especially on the robot manipulators (the 
arm and hand) to be installed on them. According to an April 7, 2004 
report in China's People's Daily, Luan said the lunar rover would carry 
the names of those institutions that take part in the vehicle's 
development.
    The report continued that the lunar rover work was being ``carried 
out under China's High Tech Research and Development Program involving 
nearly a dozen scientific research institutions.'' This work was 
initiated by Tsinghua University in 1999. The rover is to be able to 
handle a range of driving conditions and use sensors for automated 
driving around obstacles. Luan is quoted as saying he is ``on the 
lookout for innovation and creativity in building the lunar rover.''
    Two years earlier, the Xinhua news agency (Jan. 16, 2002) had 
stated that China's first space robotics institute has been set up in 
Beijing. Its Deputy Director, Liang Bin, said: ``Breakthroughs have 
been made in many key technologies of space robots. If it is required 
by China's space plan, the space robot will be sent to space very 
soon.''
    That same year, Liu Hong, a professor at Harbin Polytechnical 
University, showed a four-fingered hand for use in space. Each finger 
had four joints, 96 pressure sensors, and 12 motors. ``The robot may 
replace an astronaut to conduct some difficult and dangerous operations 
outside the space capsule.''
    Dr. Sun Zengqi, identified as Qinghua University's leading expert, 
is using virtual reality technology to overcome control problems caused 
by long time delays. Also, he is working on manipulators to handle 
equipment aboard China's first small space laboratories that will not 
be continuously manned. ``The gap between China and [other] countries 
in space robot technology has been greatly narrowed,'' Sun said.
    Tsinghua University is designing what they call ``LunarNet''. It 
would consists of a polar orbiter equipped with sixteen 28 kg hard-
landers, to be released in equally spaced areas on two mutually 
perpendicular orbital planes. The landing system, probably using 
airbags, would ensure surviving a landing at speeds between 12 and 22 
m/s. Each lander will carry a camera, temperature sensors, cosmic ray 
detectors, a penetrometer, an instrument for the measurement of soil 
magnetic properties and other instruments. The stations would use a 
relay satellite for earth comm.
    There is also the ``Lunar Rabbit'' soft-lander. It would be a 330 
kg probe costing as little as $30 million and would be launched on a 
geostationary transfer orbit from the Xichang space center. Insertion 
into a lunar transfer orbit will be carried out on the following day 
using the on board bipropellant engine. At the time of the third apogee 
the probe will be inserted in a 100 to 200 km high lunar orbit where it 
will split into two components. The first, apparently based on the 
Double Star scientific satellites, will carry out an orbital mission, 
using a CCD camera, an infrared camera, a radar altimeter and a 
radiometer. The second will head for a lunar landing. This lander, 
braked by a solid propellant engine, will carry only a camera and will 
test optimal control algorithms discussed in some length in Chinese 
literature. Once on the surface the lander will release a 60 sq. meters 
Chinese flag.
    While it is plausible that many of these programs are merely 
engineering exercises to train students, the doctrine from the 2000 
White Paper makes it clear that China cannot and will not waste any 
efforts in its space program. All activities are to be funded only if 
they contribute to an existing--if officially undisclosed--unified 
program. This suggests that these projects are not idle make-work, but 
are at least candidates for eventual official selection to actually 
fly.
    These probes, and a long-range plan for an automated sample return 
mission by 2020, will not be direct copies of previous missions by 
Soviet and American spacecraft. Wu Ji, the Deputy Director of the 
Chinese Academy of Sciences' Center for Space Science and Applied 
Research, recently declared that Chinese Moon probes will aim at 
questions not addressed by previous missions. He stressed the 
importance of doing ``something unique.''

The Looming ``Great Leap'' In Spacelift Capability
    The key to more ambitious Chinese moon plans--to the rover mission, 
for example, or even a fly-by of the moon by a manned spacecraft--is 
the development of a new and more powerful booster called the CZ-5. 
Comparable to the European Ariane-5 booster or the Russian Proton-M, it 
will not be a simple upgrade of previous vehicles in this series, where 
more power was obtained by adding side-mounted boosters, stretching the 
fuel tanks, and installing high-energy upper stages. Those incremental 
advances have reached their limits, and an entirely new design of large 
rocket sections and bigger engines must be developed over the next five 
years.
    China has stated that it intends to develop this mighty rocket for 
launching larger applications satellites into 24-hour orbits, and for 
launching its small space station. The components are too large to move 
by rail to the existing inland launching sites, so they will be shipped 
by sea to an entirely new launch facility on Hainan Island, on China's 
southern flank.
    This new launch vehicle is a major quantum-jump in the Long March 
family and presents very formidable engineering challenges. It will 
take tremendous efforts, and significant funding, and some luck as 
well, to make it work on the schedule announced in Beijing. And until 
the booster is operational, ambitious moon plans cannot be attempted.
    Once the CZ-5 is man-rated--and we re talking about at least five 
years, probably more--a beefed-up Shenzhou vehicle could be launched to 
the Moon. Two different possible flight plans are available: a simple 
swing-by (as with Soviet Zond probes in 1967-1970) and a lunar orbital 
flight (as with Apollo-8 in 1968). The simpler variant could be carried 
out with a single CZ-5 launching; the orbital profile could require two 
launches.
    At the present time, however, there is no hard evidence that the 
Chinese government has officially sanctioned such missions--nor is 
there any need for them to do so at this point, since much of the 
technology to realize such options is already under development for 
more near-term goals. Nevertheless, Chinese capabilities for human 
lunar missions--at least to orbiting it--can quite reasonably expected 
to become available in a time-frame similar to NASA's ``Return to the 
Moon'' strategy, and the option to fly such missions as an equal 
participant may prove to be irresistible to the Chinese government.

China vis-a-vis the United States: Strengths and Weaknesses
    A comparison between the Shenzhou spacecraft and its direct 
descendants, versus the still-undefined and undersigned U.S. 
Constellation project (nee CTV, CERV, etc.) reveals a pattern of 
relative strengths and weaknesses of the two nations and their 
approaches to expanded lunar activity.
    Both vehicles can carry 3 or more crew, are launched on expendable 
boosters, have launch-escape-systems, can rendezvous and dock in orbit, 
and return on dry land. Both promise to outstrip capabilities of the 
Russian Soyuz vehicle, just as Russia itself wants to replace it with 
the Kliper design (the Russians see this project funded by Europe and 
the U.S., in their dreams).
    The United States spends $30 billion a year on space, the Chinese 
perhaps $2 billion. But the Chinese have made it clear they will not 
duplicate across-the-board all of the activities funded by the United 
States.
    A major problem for China is that their top-down and tightly-
focused space management strategy is extremely brittle, and vulnerable 
to unpleasant surprises and unpredicted constraints. This is because 
space technology often cross-fertilizes, and difficulties in one area 
find solutions in seemingly unrelated disciplines, in a manner that top 
level management is usually incapable of foreseeing. Although 
methodical and incremental approaches to programs such as Shenzhou have 
been successful, more advanced projects--particularly the CZ-5 
booster--will require longer strides and may reveal the shortcomings of 
narrowly aimed management. That in turn may encourage more aggressive 
efforts to find the required technologies overseas.
    Beyond mere technology acquisition, China has implemented an 
extremely effective policy of extracting all usable lessons from other 
countries space experiences. This is the fundamental issue of 
engineering judgment, the day-to-day decision-making that propels a 
program to success--or, if not done properly, to frustration and 
disaster. The Chinese have studied the Soviet, the American, the 
Japanese and European and other programs intently, with the explicit 
goal of learning from them. NASA's culture in recent years, on the 
other hand, has looked overwhelmingly arrogant towards any outside 
expertise (even, or especially, from other U.S. agencies, and sometimes 
actually between different NASA centers). Worse, it has shown itself 
incapable of even remembering fundamental lessons (such as flight 
safety) that an earlier generation of NASA workers had paid a high 
price to learn--only to have it forgotten and eventually (hopefully) 
re-learned.
    The demographics of the space teams in both countries also 
demonstrates a major difference that goes beyond mere financial 
resources. While space workers are equally happy to be at their jobs, 
the workforce in the Chinese program reflects the major build-up of the 
past decade and is predominantly young, and has been involved in major 
program development activities. NASA, as a mature civil service branch, 
has had relatively stable--some might even say moribund--staffing for 
decades. While there has been a steady flow of new hires, they have in 
large part been involved in maintaining existing programs, without much 
opportunity to learn by doing . Outside observers such as Dr. Howard 
McCurdy have voiced serious doubts that the current NASA culture is 
capable of sustaining an ambitious and expansive new program (late last 
year he testified how that could be fixed), but there is little doubt 
that the Chinese space workforce is, because they've shown it.
    The rationale for China investing substantial sums into expanded 
human space flight--space stations and even lunar sorties--remains 
unclear, but to a large degree they may be the same motivations that 
have already funded the Shenzhou program. If Shenzhou continues to be 
successful, internally popular, and helpful to Chinese economic, 
diplomatic, and military relations with other nations, then more 
ambitious projects with similar effects may justify their budgets too.
    Weighing these factors, the future of lunar exploration--and 
China's role in it--is likely to be extremely interesting. While the 
motivations that fueled the Space Race of the 1960s are largely 
absent--primarily the naked fear in the U.S. that a world that accepted 
Soviet dominance in space would have many other consequences 
undesirable from a U.S. point of view--there remain solid motives for 
international rivalry, for serious attempts at illicit technology 
transfer, and for activities that could diminish the world stature of 
U.S. aerospace technology.
    In metaphorical terms, China is now facing a steep road into the 
sky. It has shown it has the heart and the brains for this chosen path. 
Now the world must wait to see if it has the muscle and the stamina--
and the wisdom. And the same question applies to the United States.

    Senator Brownback. Thank you, Mr. Oberg. Let's run the 
clock at 10 minutes and Will and I will bounce back and forth 
here. Who, on currently announced schedules or plans that we 
are ascertaining where people are going if we don't have 
clearly announced schedules, what country will be the first 
back to the moon with a human mission and by when, on currently 
announced or schedules that we are looking at and appraising 
what they are doing if they haven't publicly made 
announcements.
    Mr. Oberg. I think the competition is not very large 
because the Chinese have said--the problem with Chinese 
information is that we're still not certain how to translate a 
lot of the terms and there's mistranslation and there are 
comments made from people over there whose authority to make 
the comments we're not probably sure of, but the comments from 
Beijing and elsewhere that they have a program to put people on 
the moon I think are not credible. Nor do they need that 
program now. What they need now are laying the foundation for 
later deciding to do it. The only announcement of a schedule 
I've seen for anyone is NASA's.
    Dr. Logsdon. If the Congress gives the authorization and 
appropriations to NASA this year to get started on its 
programs, particularly the Crew Exploration Vehicle, it will be 
the U.S. first back to the moon. None of the other countries in 
Europe, Japan, India have human missions on their schedules at 
this point, and as Jim Oberg has said, the Chinese outlook is I 
think at best uncertain.
    Senator Brownback. China will have the capacity to go with 
a human mission to the moon by when, given a successful set of 
developments in rockets that they're into now?
    Mr. Oberg. I think we can reasonably expect them to repeat 
the schedule for the Shenzhou mission: approved in 1992, began 
construction of the launch facility at Jiuquan in the Gobi 
Desert in 1993. It took 5 years to build the launch facility 
and the processing buildings. First unmanned test flight of 
Shenzhou, 1999, first manned flight, late 2003, so it's about 
11 years from approval to first manned flight. They could 
probably put more money and do that sooner because they've 
already done it once now, but I don't think a lot sooner. I 
would say doing it in less than half that time is just not 
believable. Otherwise, we're just guessing. But 6 to 12 years 
would be a number I would put as a range from the time they 
decide, let's send people to the moon.
    Senator Brownback. Well, maybe I then didn't hear you quite 
right on this, Jim. I thought you said that if they 
successfully test this launch capacity by the end of this 
decade, they will then be able to make a determination whether 
or not they want to go to the moon and they will have a number 
of pieces in place to be able to do that.
    Mr. Oberg. They will have those pieces. They would then be 
able to begin testing spacecraft. Their approach to Shenzhou is 
much more methodical and slower than most of us outside 
observers, myself included, thought. It took them longer to get 
from the first test to the manned flight, but when they got 
there, they got there perfectly. The mission was, as far as we 
can tell, perfect. When it comes to lunar flight, if by the end 
of this decade the Chang Zheng 5-500 rocket is operational and 
has been launched and they at that point want to use it for a 
manned lunar flight, it would only be a matter I think of a 
couple years before they could carry that out. So in that case, 
we're looking at 8 years, and I think 8 years is something that 
is plausible, but again, based on decisions I don't think have 
been made yet.
    Senator Brownback. You think from where they are today, 
they could be on the moon in 8 years if radical decisions are 
made?
    Mr. Oberg. They could be doing flights in lunar orbit. The 
step to get onto the moon requires that a whole new booster 
family beyond this new one would come along or they'd begin to 
go multiple launches--and they do not do multiple launches, 
have not in the past, although their launch rate is doubling 
and the budget's doubling. They're launching more vehicles this 
year than they ever launched.
    So getting people in lunar orbit like Apollo 8 is something 
that is conceivably within their reach in the time scale we're 
looking at, 8 years I'd say is a good guess. But to put people 
onto the lunar surface is a whole other project that is again a 
step beyond that. It's a step for them and for us, because I've 
seen various estimates of when NASA thinks it could get people 
back on the lunar surface and we're talking about--well, John, 
you're more familiar with those than I am.
    Dr. Logsdon. The official date in the President's policy is 
between 2015 and 2020, so those time scales could converge if 
China has the appropriate developments with its new class of 
vehicles, that both the United States and China could be 
conceiving of human missions landing on the moon the second 
half of the next decade.
    Senator Brownback. And roughly the same time?
    Dr. Oberg. Yes.
    Senator Brownback. That they would be on track in 
development to be in a position to put a person back, a person 
on the moon in roughly the same time the U.S. would be under 
our current announced schedules?
    Dr. Logsdon. That seems to be the case, yes.
    Senator Brownback. OK. Let me talk budget, and nobody else 
has plans for manned missions to the moon?
    Dr. Logsdon. Well, there was a group within ESA last year 
that went off by itself and developed a plan for a European 
lunar base by 2020 or 2025, but it was kind of orthogonal to 
the main line of ESA thinking and the people responsible for it 
are not going to be there in the future, so I think that was a 
dead initiative, although some people in Europe put a lot of 
work into it.
    Senator Brownback. But nobody else has announced lunar--
does anybody have announced human missions to other places than 
the moon? You mentioned Europe has planned missions to--well, 
Mars, Venus, Mercury, obviously they're not----
    Dr. Logsdon. Europe had a study program built around the 
notion of human missions to Mars in the 2030 to 2035 time 
period called Aurora, but it was only a study. It was not, did 
not have political sanction, and is being revised to reflect 
the U.S. proposal and be more complementary to what the U.S. 
has put on the table.
    Mr. Oberg. We have some very explicit comments from Chinese 
officials about their philosophy for their future strategies. 
They will not be retreading past ground, they've said. They 
will be doing things with the moon different than have been 
done in the past, doing things out in space different. If we 
are fixated on being on the moon to reprise Apollo, we may 
overlook, what other people have not overlooked. This has been 
mentioned before, there are other missions beyond low-Earth 
orbit that don't involve lunar surface access. They are both 
either lunar orbit or the Lagrange points around the moon, 
which are of great interest for a number of reasons, for using 
it for staging eventually to a lunar surface. These missions 
that don't require a lot more propulsion than getting to the 
moon, but only more life support to go beyond the moon: either 
just out into interplanetary space and back, or out at the 
times when there are asteroids passing within a few million 
miles of the Earth, to visit then and return.
    These near-Earth asteroid missions are attractive. And if I 
can intuitively say, what would be most attractive to the 
Chinese based on the strategy they've already developed and the 
rationales they've already discussed, to make a point to 
themselves and the rest of the world, I would not put the lunar 
surface as the target. I would put something that is much more 
spectacular that would be one heck of a demonstration of their 
abilities and would steal a march on all of NASA's official 
plans.
    Dr. Logsdon. Senator, if I could add just one more thing. I 
quoted in my oral testimony the President of India, Dr. Abdul 
Kalam, about the inspirational effect of the first Indian lunar 
robotic mission. He went on to say, he could ``visualize a 
scene in the year 2021 when I will be 90 years old visiting the 
Indian space port for boarding a space plane so I can reach 
another planet and return safely as one of the passengers. I 
can foresee this center to grow into an international space 
port with a capability of enabling launches and landings of 
reusable launch vehicles.''
    So clearly in the broadest Indian thinking, human missions 
to other destinations are part of the future. Those aren't 
approved missions and there's no schedule, but it's part of 
their thinking.
    Senator Brownback. Let's talk budget. Ms. Smith, you may be 
the best one to help me on this. Give me the respective general 
budgets for space exploration, announced and then also hidden 
budget, if other countries, China, for instance, has an 
announced project but it actually pulls from a number of 
different sources so that the total amount is more. Do we know 
the space budget for a number of these other countries, or if 
somebody could articulate that for me?
    Ms. Smith. It's difficult to get at a true total number 
from some of those sources that may not be publicized, so what 
we know is what government officials say about their budgets. 
So for the Russian Space Agency, for example, Yuri Koptev, who 
was head of the agency until recently, said that the 2004 
budget for the Russian Space Agency is about $500 million when 
you convert it into dollars, but whether or not they're also 
getting revenue from other Russian commercial space activities 
to augment their budget is not something that's made public, so 
it's very difficult to get an exact number, but it's on that 
order of say $500 million. I think the Indian space budget is 
also around $450 million, John, something like that.
    I think if you look at the total European spending on 
space, military and civilian, I've seen numbers around $7 
billion, of which about $4-1/2 billion is for civilian space 
activities. The budget for the European Space Agency last year 
was about $3 billion U.S. I don't know which other countries 
you would be interested in. The Chinese budget I think is 
around $2 billion.
    Senator Brownback. Annual?
    Ms. Smith. Annually. But in reference to what you were 
discussing earlier in terms of who has plans to go to Mars, for 
example, for example, I'm not sure anyone has, quote/unquote, 
``a plan to go.'' Even we don't. The President said that we 
were going to go the Moon and Mars and worlds beyond, but there 
was no schedule for that either.
    I think a lot of the countries have visions, and they have 
studies, and they have the desire, and they want to go, and 
they're all waiting for some catalyzing event to make it 
happen, and they're all looking for money, which is why, 
whenever these long-term visions are discussed, they're almost 
always discussed in an international context, because people 
assume that you're going to have to get a lot of countries 
together in order to afford it.
    Senator Brownback. Jim, what's happened in the Chinese 
budget over the last 5 years--space budget?
    Mr. Oberg. We've seen the budget--the official budget 
figures double. We've seen the launch rate----
    Senator Brownback. The last 5 years?
    Mr. Oberg.--the last 5 years. And we've seen the launch 
rate double, and may double again in the next year or two.
    The Chinese have not made a lot of launches. In their Long 
March series of rockets over the past 30 years, they total 
about 70-75 launches, and a few from other programs, as well. 
That's what the Soviets would launch in a year and a half back 
in the space race. At the same time, there are more launches 
now coming down. And what we've seen, already, they're ramping 
up.
    With Shenzhou, at first we thought, that after the first 
flight, they would begin a Gemini-like program of flying every 
several months, three, four, or every 6 months. They decided 
they're not going to fly even this calendar year at all, and 
fly the next Shenzhou mission next year.
    But clearly they fly a mission once, learn from it, and 
don't keep repeating it. The next mission is two people for a 
week in space. That's pretty much now the official comment. The 
mission beyond that would involve a space walk with space suits 
to go outside, and some testing of rendezvous and docking, the 
technology they need for a space station. They've said that 
their approach is different than the West, than the U.S. and 
the Soviets did; they will launch into orbit, detach the 
forward nose section of their spacecraft, back away and re-dock 
with it several times. So they only have to launch one vehicle, 
instead of two, to practice this rendezvous and docking. That's 
entirely plausible. It would leave them in a position, after 
only 4 or 5 flights over the next 3 or 4 years, to begin use of 
what they say is their next step, which are short-term space 
laboratories that would be visited by crews. After that comes 
the time to get their large vehicle up, their Mir-class 
vehicle. They said that will take awhile before they're ready 
for it. And, sure enough, it's also going to be awhile before 
the launch vehicle is ready.
    So they've discussed in public what is converging on a 
description of a plan with Shenzhou that is going to put them 
into essentially a Russian-level capability within a couple of 
years, beyond anyone else's. And is Shenzhou really Chinese--
not for ``Magic Vessel,'' which is the word for it--it might be 
the Chinese for ``Constellation.'' There's a spacecraft that 
NASA would like to build sometime in the next 10 years that 
will probably look a lot like the spacecraft the Chinese are 
now flying.
    Senator Brownback. Astronaut Bill Nelson?

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Is that spacecraft the crew-exploration 
vehicle?
    Mr. Oberg. I'm referring to the current--that's the current 
acronym for it. I wouldn't want to guarantee how long that will 
be the name.
    Senator Nelson. And does it look like that?
    Mr. Oberg. It looks a lot like--we don't know there are 
three or four different drawings I've seen. The Shenzhou 
followed a procedure that the Chinese learned from their own 
experience and ours, you develop a spacecraft based upon the 
mission requirement. You don't build a spacecraft to please 
aesthetics or Hollywood or different contractors, or even--
pardon me--you know, different politicians. You build it based 
on the requirement. And the Shenzhou appears to do that. 
Whether we're going to be smart enough to copy the Chinese 
philosophy or not, I'm not yet sure.
    Dr. Logsdon. Well, but this time NASA, at least on paper, 
claims it's doing it right, setting out the requirements for 
the spacecraft first and then designing to that requirement. 
Those requirements are not set, so what the spacecraft is going 
to look like at this point, in April 2004, is only speculation.
    Senator Nelson. Well, you all are the experts. I want to 
find out from you--Why back to the moon before we go to Mars? 
Now, Jim, Mr. Oberg, has just laid out a very practical 
building-block-by-building-block program that the Chinese have 
a reason--also with their politics, their world prestige, et 
cetera, et cetera. But for the rest of the world, and maybe for 
the Chinese also, what happens if the rovers that we send up 
there to Mars in 2007 and 2009 and 2011, building on the 
discovery that has just been made by one of the rovers that 
there was a sea, and that we start to discover--let's say we 
start to discover fossils. Isn't that going to, first of all, 
ignite the curiosity and imagination of the American people? 
And is that not going to refocus as to whether or not we should 
go to the moon or go straight to Mars? That's question one. And 
then, could not we have international participation in that?
    Ms. Smith. It's been a long-running debate as to whether to 
go back to the moon or just go directly to Mars. There are 
people who have strongly held views on both sides. Those who 
think that we should go back to the moon first usually cite the 
fact that it's close to home, so if something goes wrong you 
can get people back very quickly; whereas, if you sent them to 
Mars, they're pretty much committed. And they also point to the 
fact that you can use materials on the moon to launch future 
missions to Mars, and that's what President Bush raised when he 
announced this initiative in January.
    There are folks--I'm sure that you know them as well as I 
do--who think that we've been there, done that, don't need to 
go back to the moon; let's choose a very challenging goal, 
realizing that there very probably be lives lost along the way, 
and just go directly to Mars and accept that risk. But, at the 
moment, the President has decided that we should take the 
slower approach and go to the moon first.
    Senator Nelson. The slower approach was announced before 
the little rover discovered that there was a sea on Mars, and 
so I'm just asking ``What if?'' What if, by 2007 and 2009 and 
2011, we suddenly find that there were forms of life on Mars? 
Doesn't it accelerate the whole quest to go to Mars and have a 
human dig around and try to find out what was there?
    Ms. Smith. It may depend largely on how much risk everyone 
is willing to take, because you may not have the knowledge that 
you need at that point as to what the effects are on people 
when they journey that long in weightlessness and how they're 
going to react when they're on the surface of Mars, which is a 
third G. You may not have the radiation studies completed that 
you want to have completed. So it'll probably boil down to risk 
and money.
    Mr. Oberg. But this is also what ISS has been teaching us 
in this past experience, and proving its value in that ISS has 
taught us that we're not smart enough to build a spacecraft yet 
that can spend 3 years without resupply and without fresh spare 
parts showing up. The experience of ISS is that we need to 
practice better in low-Earth orbit and potentially also in the 
area around the moon--or maybe not--but at least to practice 
before we commit to the long flights to Mars. We're going to 
expect losses--is not something you can do with high-level 
losses, because the support will be gone. So that when you 
leave for Mars, you're going to have to be, like what the 
Chinese launched, Shenzhou 5. They methodically did 
intermediate steps, checked them out thoroughly, took longer 
than other people thought, but may have been just cautious 
enough to make the flight of Shenzhou 5 successful.
    On Station, as you've been aware, there have been a number 
of problems. Equipment's broken down faster than it was 
expected to. Also, without being repaired with Shuttle 
missions, there are a number of other systems which are right 
now teetering on the brink. There are backups, because of the 
multinational nature of it. Some systems that we have that 
won't work, the Russians will step in, and vice versa.
    There, I think we do see the strength of an international 
partnership, where there are complementary capabilities that 
each country contributes, as opposed to one vehicle built of 
pieces from all the different countries.
    So if we go international, I think one thing to enhance the 
reliability of an interplanetary flight is having at least two 
different teams--perhaps a U.S., with its partners' teams, the 
Chinese with their partners' teams--being able to send crewed 
human vehicles. Perhaps a fleet, perhaps two vehicles going 
together, standing by to help each other out, might greatly 
enhance the chance of the crew getting back. And it wouldn't 
take a whole lot longer or cost a lot more, because with 
international cooperation, we've found out that it never saves 
you money.
    Dr. Logsdon. If I could add just a slightly different angle 
to the discussion. First of all, I don't think we're finished 
with the moon. There are potentially resources there that could 
enable, for long periods of time, space exploration beyond the 
moon. We need to go and see whether they're really there or 
not. Maybe we can do that robotically and don't have to send 
crews back, maybe not. This is mainly the water frozen as ice 
in the deep craters at the poles.
    I use the word advisedly, the ``genius'' of the President's 
plan, because there are lots of problems with it, is its 
flexibility. It really doesn't commit to particular 
destinations; it lays out an initial path that can be changed 
if discoveries along the way merit it. We're not building, like 
we've built for Apollo, a system only good for going to the 
moon.
    One of the problems with the Apollo capsule and the lunar 
modules--they were great for getting people to the moon and 
back, and not very good for anything else, and so we retired 
then in 1972. One hopes that we will build a flexible system 
for interplanetary travel by humans that can be used to get 
back to the moon, if that's the destination we choose, that can 
go on to Mars, that can go to Lagrangian points, that can go to 
near-Earth-orbit objects and give us the capability to really 
move out into the Solar System to whatever destination we 
choose along the way.
    Mr. Grahn. May I add just a----
    Senator Nelson. Please.
    Mr. Grahn.--reflection? Well, it sounds interesting and 
good with a vehicle that can do a lot of things, but it reminds 
me of a Swiss Army knife--each blade can be used, but no blade 
is any good.
    [Laughter.]
    Mr. Oberg. But because this vehicle, exploration vehicle, 
is apparently expendable, or at least fewer re- uses, as--we 
can do as the Soviets did, develop several different 
evolutionary paths with the same basic airframe, with major 
commonality between different vehicles, but more specialized 
toward the specific mission plan for that particular kind of a 
vehicle. So we're not going to build a vehicle that can do 
everything. We're going to have a design that, with 
modifications and additional equipment, can do one or the 
other, or a third option.
    I would like to have thought--and, Senator Nelson, I was 
feeling very much like you, a Martian for many years--that we 
should go to Mars quickly, take the bit in our teeth and go out 
there. Watch the experience on the Space Station and experience 
that the Russians have had. As good as they were with Mir, 
keeping it going, they kept it going only because of resupply 
from the ground. Parts would break that were not predicted to 
break. The Shuttle could bring things up that they couldn't fit 
in their own cargo craft, and they kept Mir going, did a 
marvelous job.
    If Mir had been sent toward Mars, the crew would have died. 
Not because of a fire or a collision or the other accidents, 
but because things broke down and they ran out of spare parts. 
We're running of spare parts on ISS now. What spare parts to 
pack?
    There may be things that we can do and practice around the 
moon that won't delay getting to Mars at all, that we'd have to 
practice somewhere. It's like a testing ground, and it's like 
the testing ground that the Chinese find in space for their 
high technology.
    Space is the ultimate judge. There's no bluffing outer 
space. You can't fool Mother Nature, as Dr. Feynman said. And 
testing the techniques, technologies, required for 
interplanetary flight--far harder than I know I thought 10 
years ago, and many others--you need somewhere to try it out. 
The moon may be one area, other areas around the moon, the 
Lagrangian points that have been mentioned, and, as I 
mentioned, near-Earth asteroids, a very tempting target of high 
scientific value and intermediate challenge. Those are all out 
there as options, and NASA's strategic planning is looking at 
these options, I think, in a very mature way.
    But the options that we're looking at for our purposes are 
not the same as the Chinese are looking at, and they would want 
to--they may just look at what we're doing, and pick and choose 
what they can do to make the most impressive point. Their 
intention is not to match us program by program by program. 
They've said that. Their intention is to find the project that 
we're doing, find the one, the most spectacular one, that they 
can do first, perhaps, make the point, and perform that. And 
that is the kind of strategic thinking that can lead to, I 
think, very spectacular Chinese successes in the next five, 
ten, fifteen years.
    Senator Nelson. Well, I would just say, in conclusion, Mr. 
Chairman, that one of the things that we have to worry about is 
whether or not we can get the money, and how do you translate 
the will of the people into votes. And right now that's a very 
difficult thing to do.
    It may well be--and I'm sure the thought has occurred to 
you, Mr. Oberg--that because the Chinese are headed to the 
moon, there might be some of this old Cold War competition that 
comes back into the factor of the politics that allows us then 
to translate the concern of that into dollars that's allocated 
to the space program, but it's too early to know. But that 
certainly is a possibility.
    And when China orbited their astronaut, that was one of the 
first things that I thought of, it might be a help to us.
    Mr. Oberg. It's not a zero-sum game that--the Chinese can 
succeed, can compete in a peaceful area. I think, looking 
historically at the space race, at the Soviet participation--
and I'd be happy for other comments here--the Soviets found an 
area of competition in which they could make a contribution--
they could impress the world and their own people in a 
beneficial kind of activity that judged how good they were, and 
rewarded them when they succeeded, and didn't involve military 
or oppressive techniques. And as they earned more respect 
outside their own country, justified respect for their 
activities, in many ways this, I think, softened the xenophobia 
and the garrison mentality that they had from Stalinist days. 
They were happening anyway.
    Perhaps these are coincidental. But success in space 
strikes me--each country's success is the success of the whole 
world, and they build on each other.
    We can look at a case in the future, when the Chinese are 
going to be building things in space. We're going to realize we 
should be matching them because it's a new arena. Leaving it to 
them and other nations is not going to be good for practical 
terms or psychological terms for the United States.
    We're never going to dominate entirely again, but--and 
we're never going to have one unified world program, but a mix, 
a balance of different approaches, based on past experience and 
a good view of the history, I think, can benefit everyone.
    Dr. Logsdon. Think of yourself as a politician in 2020. If 
China's on the moon--India is headed in that direction, maybe 
Japan, maybe Europe as a partner with one or more of them--and 
the U.S. has chosen not to go, is that a politically acceptable 
position to leave to your successors?
    Senator Nelson. The answer to that is no. And at that 
point, if the route is through the moon, I hope we're on the 
moon, getting ready to go to Mars.
    Dr. Logsdon. Indeed.
    Senator Brownback. Let me--Mr. Oberg--thanks, Bill, for 
being here--let me pursue this idea, because I had not thought 
about that, about China going to a near-Earth object, instead 
of back to the moon, and that's a great--and they would land a 
craft on----
    Mr. Oberg. A manned craft, and run some robots on it, get 
some samples. As we all realize, we have profound interest in 
the structure of Earth-crossing asteroids, because at some 
point, if not this year or even this century, we're going to 
have to go and interfere in the course of some of these. And 
we'd need the preparation of what do they do when you--how do 
they respond to us pushing them? We can get that from unmanned 
vehicles, as well as manned vehicles. But often, because of the 
fast approach and that they're only nearby for a little while, 
a manned vehicle could well be the most efficient scientific 
technique.
    Senator Brownback. By what time would they have the 
capacity to be able to do that on the development approach that 
they're in now?
    Mr. Oberg. If we're looking at being able to send a 
Shenzhou-type spacecraft and a mission module of about the same 
mass that could keep them alive for several months, we're 
talking about several launches of this CZ-5-500 new booster, 
which could be online and ready by the beginning of the next 
decade. If they wanted to make that dash, try some practices, 
even send a crew out a million miles and back as a sortie into 
interplanetary space, with the intention of, not being a stunt, 
but being pioneers on plans they would like to see done, I 
think that would be tremendously respected by, and impressive 
to, the rest of the world.
    And then later on, when there is an asteroid they might wan 
to visit, they would have to send an additional mission module, 
a housing module with equipment. That could come later.
    Dr. Logsdon. You know, one question to which I do not have 
the answer is when a suitable body will be in the proximate 
vicinity of the Earth system that could be a target for 
landing.
    Mr. Oberg. They tend to be--we're finding enough now, at 
least every year or two, if not more frequently. Some require 
longer voyages than others. Some are quite convenient; you can 
make a voyage out and back in a few months. Others require 
almost 12 months in flight, which is much too long for initial 
flights. And the initial flight might just be a flight out 
beyond the Earth-Moon system, test navigation in interplanetary 
space, and return to Earth, just as a sortie.
    The first sortie out beyond the Moon would almost pull the 
rug out for any value--well, it would make going back to the 
Moon look almost pedestrian in comparison, but it would be 
easier than going back to the Moon. And that strikes me as an 
attractive kind of strategy. Maybe we shouldn't have published 
it.
    [Laughter.]
    Senator Brownback. Mr. Grahn----
    Mr. Grahn. Yes?
    Senator Brownback.--I want to talk about micro-satellites 
and those sorts of missions that are going on. Why do you--I'm 
kind of curious about ourselves, the United States, and you, 
maybe, as a space observer and person that understands--why 
haven't countries like ours pursued investing in low-cost 
micro-satellite-type missions? Do you have any thoughts on why?
    Mr. Grahn. Well, I'll try to reverse the reasoning, because 
I don't want to answer straight to the point.
    Sweden, for example, a very small country, very short of 
money, is--the only way for us to get into space--that's the 
only option, to do a low-cost approach. And Europe only spends 
$3 billion a year on space. It's--we're just not affluent 
enough. In the United States, your resources are much bigger 
and----
    Senator Brownback. But if these are micro-----
    Mr. Grahn.--the pressure is not on----
    Senator Brownback.--if these are micro-satellites, you can 
get them up, your cost structure is much reduced, you still get 
valuable information out of them--perhaps disproportionately 
valuable, relative to the cost of doing it?
    Mr. Grahn. Yes, but the--well, I don't want to say 
something political, but it's--you know, big organizations want 
to do big programs; small organizations can get along with 
smaller programs. So it's a matter of the organizational 
context. And you don't get to be a big boss in a big 
organization by running a small program. You run a big program. 
I mean, it has something to do with the organizational setup 
and the mindset of the organization running programs--unless 
you set up a little organization within a larger one.
    I remember when we started with space activities in Sweden. 
We read some paper from the AIAA called ``How to Run a Small 
Project Within a Large Organization.'' And it takes--you have 
to set aside a group of people and say, ``OK, you guys are 
allowed to work in a different way, have your own mindset.'' 
Because, otherwise, the--this may be construed as dangerous to 
the organization as a whole if you can do things in a different 
way.
    Senator Brownback. There's much discussion here about going 
to micro-satellite programs now, and even perhaps going to and 
having private sector doing micro-satellite-type programs. Do 
you--are you hearing a great deal of discussion about that, as 
well, going more along your model of what you're doing?
    Mr. Grahn. Yes, I think that certainly private entities can 
launch things to other planets if they can get the money to do 
it. Just because, as I said, there is certainly a standardized 
approach, standardized industrial methods that can be used. So 
it's not something that's impossible to do.
    If you look at unmanned robotic spacecraft, they are 
entering into the area where they are, sort of, reaching the 
industrial stage. By that, I mean that there are 
interchangeable parts that can be used, and you don't have to 
reinvent the wheel every time.
    There's this old story about the coat factory, which was 
supposed to be the first company that pioneered replacement 
parts, but they found a bunch of files in their cellar when it 
went bankrupt.
    This is, I think, the key to spacecraft development, is the 
use of standard parts, standard methods. And it is--we were on 
the verge of reaching that situation with the Constellation 
missions, the telecommunications Constellations.
    But I think recent events, as I described in my talk, in 
non-aerospace technology has helped spacecraft development, 
because software is such a huge part of a spacecraft. For 
example, the SMART-1 space probe, I think that 25 to 30 percent 
of the incurred cost is just coding, software development. Then 
if I also count designing electronics by programming, so-called 
``gateways,'' it's more--making electronic circuits is looking 
like software programming. So that's a huge chunk. And now that 
the industrial methods have finally reached the software arena, 
this can greatly help the development of spacecrafts.
    Senator Brownback. Let me ask about Chinese/Russian 
cooperation in future space exploration programs. One of you 
presented about the great legacy of the Russian programs--I 
think, Ms. Smith, that you did--talking about length of time, 
space stations, the number of firsts that the Soviet program 
had in the legacy of Russian, and that one of you had 
mentioned, as well, that the Chinese space suit looks a lot 
like the Russian space suit adopted here.
    What about the likelihood of a Russian/Chinese 
participation, joint venture, on an international space effort 
to a near-Earth object, Moon? Are any of these things being--do 
we know if these sort of things are being discussed?
    Mr. Oberg. There has been no explicit reference to a near-
Earth object mission that I've seen in the Russian or Chinese 
literature. The Chinese literature on lunar flight looks to me 
to be extremely derivative of the Western reports on it, but 
they have talked very ambitiously about Chinese and Russian 
extended cooperation on other missions. So they clearly do like 
to cooperate.
    The Russians will sell China what it wants. The Chinese 
won't always buy it, because they can't afford it. But for 
future missions it's certainly very plausible.
    In terms of--we're speculating on things that the Chinese 
could find useful and attractive, I have not seen any explicit 
reference in their literature toward anything but lunar flight, 
and even lunar landing. But the lunar- landing discussions 
strike me to be entirely derived from reading Western reports, 
not any of their own native research.
    Senator Brownback. What if there is a Chinese/Russian 
partnership on going to the Moon? Doesn't that move forward the 
Chinese ability to do this quite a substantial amount, given 
the Russian knowledge?
    Mr. Oberg. I think the prime Russian motivation for space 
cooperation has got to be cash-flow. And as Marcia Smith has 
said, they receive a substantial amount--I believe the figure 
is almost half of their budget--from Western sales. They 
probably will keep to the concept, ``dance with the guy what 
brung 'em'' when it comes to where their program is centered. 
The Chinese don't have anywhere near that much money. And while 
the Russians still need that flow, they'll probably stick with 
their current partners for that very reason. But there's no--
but other partners, other partnerships, can be formed.
    The Chinese clearly want to partner with other countries. 
They partner with Brazil on Earth resources, they partner with 
ESA on science satellites, including one that was launched a 
few days ago. They want to partner more with Japan, with South 
Africa on software. The only country they haven't really 
discussed wanting to partner with much is the U.S., and they're 
still feeling, I think, that the termination of their satellite 
launch services, commercial and satellite--they no longer 
launch satellites for money, and it's primarily because of 
ITAR, primarily because of U.S. policy.
    Dr. Logsdon. I would add that Russia's potential primary 
partner for cooperation is Europe. There are lots of back and 
forth between Europe and Russia on future plans. After all, 
Europe is financing the creation of a Russian--of a launch site 
for the Soyuz vehicle at the European launch site in South 
America, which will give Europe, using Russian hardware, 
independent access for people to space sometime in the next 
four or 5 years. So there's a lot of interaction there; I think 
much more than a Moscow/Beijing axis emerging.
    Mr. Oberg. And Russia has the hardware to do these 
missions. If they had the financing, they could be a third 
party to go beyond low-Earth orbit. They always wanted to. They 
have the--they could turn their hardware toward it, but it 
would take funding levels far beyond what they have available 
now.
    Ms. Smith. I think the key is that international 
cooperation is pervasive, because here in the States we tend to 
think of it in terms of U.S.-led international cooperation. But 
all of the major space-faring countries have own cooperative 
outreaches to various partners. And so there's Europe and 
Russian, and Europe and China, and China and Russia, and all of 
these different avenues for international cooperation are 
available these days.
    You know, back in the Cold War era it was American allies 
cooperating with America, and Russian allies cooperating with 
Russia. But now the gloves are off, so to speak, and so you can 
form whatever relationship is most advantageous to you.
    So that's part of the whole changing paradigm of 
international cooperation that's underway right now, which is 
why potential partners have more options than they had in the 
past. But, fundamentally, it usually boils down to money, and 
the United States, by far, has the most money. And I think 
that's why a lot of countries look to us.
    Senator Brownback. Ms. Smith, take me--in your role as a 
historian, you've been studying--the Congressional Research 
Service--how many years, U.S. space?
    Ms. Smith. Do I have to say?
    [Laughter.]
    Ms. Smith. An eternity.
    [Laughter.]
    Senator Brownback. Well, you've got--you're a national 
treasure, but you've been at this a lot of years, and I always 
appreciate your thoughts.
    And I'm not quite sure how to ask this, other than, At what 
point in decisionmaking are we right now in U.S. space program 
relative to other times where we've made major decisions on 
space programs at this country? Are we at a point, do you 
think, of deciding to discontinue human flight, and this is 
analogous to a period when we were looking at it with Apollo?
    Give me a historical analogy of where we are, policy 
decision-making, right now for the United States, with all the 
factors that are existing here and around the world. And what's 
the best outcome in looking at those historical analogies?
    Ms. Smith. Well, of course, I imagine you're talking mostly 
about human spaceflight choices, and----
    Senator Brownback. Yes.
    Ms. Smith.--of course, the Apollo program was decided in 
the Cold War era, primarily as a competitive venture because we 
wanted to demonstrate our prowess, technologically, compared to 
the Soviets.
    At the end of the Apollo era, everything had changed. The 
interest in human spaceflight activity, it pretty much dropped 
off after we did, in fact, land people on the Moon. And so in 
the early 1970s, the focus was on developing something in the 
human spaceflight arena, but something that was very low cost, 
and that's when the Shuttle decision was made.
    And after the Shuttle was approved and it was flying--NASA 
had always seen the Shuttle as a truck to go somewhere, which 
was to a space station--and so after a couple of flights, NASA 
declared the space Shuttle to be operational, and said, ``OK, 
now it's on to the next step.'' And that was the step that 
President Reagan took, in terms of building the Space Station, 
which was basically the destination to which the Shuttle was 
going to go.
    The Station has taken much longer than anyone had 
anticipated, in terms of getting built. It was announced 20 
years ago.
    Senator Brownback. Space Station was? Wow.
    Ms. Smith. It was in President Reagan's 1984 State of the 
Union Address, and he called for NASA to complete it by--within 
a decade, by 1994. And here we are in 2004, and not only is it 
not done, but it's really not clear how much more of it we're 
going to build.
    At the moment, it seems as though the United States remains 
committed to launching the rest of the hardware that's waiting 
down at Kennedy Space Center to be launched, and to launching 
the international partner modules. But the President's decision 
is to terminate the Shuttle at that point, and it's not clear 
how the Space Station is going to be operated thereafter 
without the Shuttle, on which everyone was going to rely, for 
taking these large cargo pieces that Mr. Oberg was speaking 
about, and for getting not just crews back and forth, but the 
results of scientific experiments, all of those things that the 
Shuttle was going to do.
    So the President's decision--although everyone is focusing 
on the Moon and Mars aspects of it, the long-term aspects--is 
actually much more interesting in its near- term implications. 
As I mentioned in my statement, the fact that we're making a 
decision--we're actually deciding to suspend our own ability to 
put people into space. We did have a period like this in the 
1970s. After the end of the Apollo program in 1975, there were 
6 years in which we didn't launch anyone into space, waiting 
for the Shuttle to come along. The Shuttle was a couple of 
years late, but there was a decision at that point that we were 
going to have a hiatus in human space flights. And we're making 
that same decision now. But the difference is that now there's 
a Space Station up there, a Space Station that, under the 
President's proposal, would be the site where we're doing the 
research that needs to be done in order to enable the 
completion of the rest of his vision.
    So it is a very unique time, I think, in the development of 
U.S. human spaceflight policy where at the--on the one hand, 
we're saying that America is so interested in human spaceflight 
that we're going to spend $170 billion over the next 16 years 
to return people to the Moon, but, at the same time, we're 
deciding that, for roughly 4 years, we're not going to be able 
to launch any Americans into space.
    Dr. Logsdon. I can't help but say, if Marcia's been around 
a long time--her first job was working with me.
    [Laughter.]
    Dr. Logsdon. I must have been around even longer, and got 
my start writing a book called ``The Decision to Go to the 
Moon.'' So I think I can speak with some authority to make the 
comment that we're at a singular decision point in U.S. space 
policy equivalent, if not even more profound, than the time 
President Kennedy committed us to go to the Moon.
    We, as Marcia just said, have proposed a plan that burns 
some bridges, that says we're going to give up our current 
means of human access to space, we're going to stop doing 
things in low-Earth orbit as government programs, or at least 
civilian government programs, and we're going to head out to 
the Moon, to Mars, and beyond.
    Again, run the null scenario. What happens if the Congress' 
wisdom, representing the public will, says, ``No, we don't want 
to do that''? We are left with no human spaceflight program in 
2010. If we are committed to retiring the Shuttle, what else do 
we have left if we don't go down this path?
    I've got a piece that should be in Space News next Monday, 
that asks, ``What did we know 3 months after President Kennedy 
said we were going to the moon, in terms of details of the 
program?'' The reality is, we knew very little. The plan that 
President Kennedy approved was using an immense launch vehicle 
bigger than the Saturn V, called Nova, and going directly to a 
landing on the Moon. We didn't do any of that. By the end of 
1961, we had invented a whole new program, called Gemini, and 
put it into the program. This piece is a little critical of the 
kind of detail that Congress is asking out of NASA for the 
plan, I must add.
    This is a key point in the history of U.S. in space. And 
there's a proposition on the table that, if accepted, sends us 
one way that--for centuries; not only years or decades, but 
centuries. If we don't take this proposal, then I think it is 
the responsibility of all of us to say, ``If not that, then 
what?''
    Ms. Smith. And it's historic not only in terms of the 
actual human spaceflight program that's been laid out, but in 
terms of the attitude toward international cooperation, because 
historically the U.S. attitude has been that we want to 
cooperate with other people, but they're not going to be in the 
critical path. And now we are deliberately choosing to put 
other countries in the critical path. It's a profound change in 
how we're----
    Senator Brownback. What do you by----
    Mr. Smith.--approaching international cooperation.
    Senator Brownback.--``critical path,'' Marcia?
    Ms. Smith. Well, when you put someone on the critical path, 
it means that if they don't show up with whatever----
    Senator Brownback. Oh, OK.
    Ms. Smith.--they promise to show up with----
    Senator Brownback. OK.
    Ms. Smith.--then the program doesn't happen. So if 
something happens in 2010--you know, we don't have an agreement 
with Russia at this point for them to provide services to the 
United States from 2010 to 2014, assuming that those are the 
years in question. It could take a little bit longer for the 
Shuttle to complete the Station. Maybe the CEV is going to take 
a little longer to develop. But for the moment, we'll just talk 
about this 4-year gap. Even if we have an agreement with them 
to provide these services, suppose something happens to the 
Soyuz? Accidents happen. The Soyuz has had a very reliable 
history. But something could happen with the Soyuz. Suppose our 
relationship with Russia changes? We've put all of our eggs in 
the Russian basket, basically, for that four-year period.
    Senator Brownback. Now----
    Ms. Smith. It's a very different manner of operating than 
we're accustomed to. It may be a perfectly fine way of 
operating, but it is very different from what we're----
    Mr. Oberg. We have actually done that before. Even though 
Congress told NASA not to put Russia in the critical path of 
the Space Station, NASA disobeyed that willfully and put them 
in the critical path of the Space Station. And we paid the 
price for that in delays and extra costs, but we are to the 
point, and especially now, dependent on Russian goodwill. And 
it turns out we banked a lot of it by being good to them during 
Shuttle/Mir. And I think it's more reliable now than--I'll tell 
you, than I forecast that it would be.
    Senator Brownback. Because we've had this dual 
relationship, these dual----
    Mr. Oberg. We've had this dual back and forth.
    Senator Brownback.--systems, that we've----
    Mr. Oberg. Dual systems.
    Senator Brownback.--been able to go up.
    Mr. Oberg. Each were there when the other wasn't.
    Senator Brownback. You know, I've got to say to all of you, 
you guys are great observers of this and have a historical 
perspective that I don't, although I've been fascinated by this 
for years. But many of my years, I was sitting on a tractor in 
Kansas being fascinated by it, so I didn't get to have this 
perspective that you're giving me here today. I just don't pick 
up the enthusiasm in the Congress for continuing the Shuttle a 
whole lot longer, other than if you were a contractor state; 
then there's enthusiasm that's based upon something we all 
understand--jobs in the particular state. But outside of that, 
just as far as enthusiasm--this is the right way to go, this is 
the place for us to spend $5 billion a year--no. And it's kind 
of--you know, it's kind of, ``Why? Why are we doing this?'' But 
you do sense that, ``Yes, we want to continue manned 
spaceflight. We're not pulling out of this. This is something 
we should do.''
    It has enormous psychological value, if you can't put a 
price on it. It has an enormous value to the atmosphere of the 
country. Either way, if you're there or if you're not there, it 
has enormous consequences of it. So the people are willing to 
invest $170 billion over 6 years.
    Ms. Smith. Sixteen.
    Senator Brownback. Sixteen years, OK. Yes, I'm sorry. I 
wrote that--thank you. I want to correct my budget numbers on 
that, that's for sure.
    That there is a willingness to do that, and--but it needs 
to be something that looks to be a worthy object. And, you 
know, if we can rely on other countries and we can work with 
other countries, I think people are going to be looking, you 
know, for that as being--you know, can we find good, reliable 
partners that we can work with? The Russian experience has 
been, overall, I think, a good one, in spite of the early years 
being some negative side of it. Without them, where would we be 
with the Space Station--International Space Station now, as you 
point out?
    So there has been--you can look at that as a high value, 
that that's made the International Space Station continue to be 
able to operate right now. Without out it, it wouldn't be 
operating.
    Ms. Smith. That's absolutely true, but there is an 
agreement already in place that obligates Russia to provide 
these services to NASA. It's called the balance agreement that 
Mr. Oberg's been talking about. You know, what do we give, what 
do they give? And so under this balance agreement, Russia is 
obligated to provide these services, and that pretty much ends, 
in terms of the human spaceflight component, in 2006. So there 
won't be that kind of obligation on the part of Russia.
    So Dr. Logsdon has talked about, How is everyone going to 
feel if, in 2020, you know, China's on the moon, or whatever, 
and the United States isn't? And Senator Nelson said that was 
unacceptable. And I think the question that needs to be asked 
is, What happens if, in 2010, the United States no longer has 
the ability to get up to the Space Station, and it's Russia and 
Europe and Japan and Canada that are using it, even though it 
was built primarily at U.S. taxpayer expense, and the United 
States is not able to send its own astronauts up there, we've 
turned the keys over to the other partners, and we've decided 
not to use it?
    It may be that Congress and the White House and the public 
thinks that that's fine, that they feel that they've done 
enough Shuttle and they've done enough Space Station. But it is 
a question that needs to be asked, and people need to 
understand that this is one of the choices that's being made.
    Senator Brownback. Understood.
    Dr. Logsdon. Your colleague and counterpart on the other 
side of the Hill, Mr. Boehlert, last week, speaking to the 
AIAA, said something I think was very wise, which is that he's 
going to work with you, the authorizing committee, to try to 
separate the details of the specific budget request of FY 2005, 
and the ability to give a green or--he said, a green or perhaps 
an amber light, in principle, to the notion of this space 
exploration as the appropriate goal for human spaceflight. And 
I do hope that that signal gets sent out of the Congress this 
year, that we are going to go down that path, with the details 
to be worked out.
    Senator Brownback. No, I think it will. I hope it will come 
out. I don't sense, really, much--anybody saying we should pull 
out of human space exploration. It's just a real question about 
continuing with the Shuttle when you've got a stream of $5 
billion annually.
    Dr. Logsdon. Well, as I think you know, Senator, I served 
on the Columbia Accident Investigation Board last year, and so 
got more familiar with the Shuttle, I guess, than I wanted to 
be. And it is a remarkably capable technological vehicle. It is 
also an extremely risky vehicle. So our recommendation was, the 
sooner we got off of sending people to orbit on the Shuttle and 
on to another system, the better it is for the country.
    Senator Brownback. That's part of the feeling here, too, 
and that if you have another Shuttle accident, it's just----
    Dr. Logsdon. We're done.
    Senator Brownback. That's----
    Ms. Smith. Well, I think the key is that you can make a 
decision that you don't want to have a break in the U.S. 
ability to put people into space, but that does not necessarily 
mean that you're choosing to extend the life of the Shuttle. 
You can try and accelerate the crew exploration vehicle.
    Senator Brownback. Absolutely.
    Ms. Smith. The key is to not have the gap. Dr. Logsdon has 
talked about how the CEV right now is envisioned as a vehicle--
a Swiss Army knife, so that it can do, you know, Earth orbit, 
the Moon, the Mars, whatever. And may turn out that that's 
going to be a very expensive and lengthy process. It may be 
that in spiral-development philosophy that NASA's using for 
this program, that they can find something that's simpler and 
easier to do, that it would at least give you Earth orbit by 
2010.
    Senator Brownback. Well, and plus----
    Ms. Smith. Something that was being discussed with the 
orbital space plane last year.
    Senator Brownback. We want to bring a whole 'nother set of 
people into this discussion, other than countries. We want to 
bring the private sector into the architecture of this set, and 
leave some legacy through them, so it's not just other 
countries; it's that. And that's going to be part of what we're 
going to try to design in the legislative proposals here, is 
that we're engaging that sector, U.S. and globally, for it. And 
that's a challenge, too, you know, of how you do that. And 
maybe it's that you pay the private sector for a certain set of 
services, and the effect of that payment is that they can 
develop this service and they can sell it to others, or use it 
to other individuals, is how you leave that legacy in place, 
rather than a 5-year plan that's strictly a government-run, 
government-done, and, when it's over, government-shut-down 
operation.
    Thank you very much. We've had a wide ranging discussion 
here on important topics, and these are the building blocks of 
how we try to do these reauthorization bills for NASA, and try 
to figure out our funding approaches as we build the budgets 
together on this. It's been quite insightful.
    Thank you for joining us and for your expertise. The 
hearing is adjourned.
    [Whereupon, at 5:25 p.m., the hearing was adjourned.]

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
